<html>
<title> - BLUE TECHNOLOGIES: USE OF NEW MARITIME TECHNOLOGIES TO IMPROVE EFFICIENCY AND MISSION PERFORMANCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    BLUE TECHNOLOGIES: USE OF NEW MARITIME TECHNOLOGIES TO IMPROVE 
                   EFFICIENCY AND MISSION PERFORMANCE

=======================================================================

                                (115-44)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
             
             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-549 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>             
             
             
             
             
             
             
             
             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York               STACEY E. PLASKETT, Virgin Islands
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
VACANCY
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
GARRET GRAVES, Louisiana             RICK LARSEN, Washington
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
JASON LEWIS, Minnesota, Vice Chair   PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               WITNESSES
                                Panel 1

Rear Admiral Michael J. Haycock, Assistant Commandant for 
  Acquisition and Chief Acquisition Officer, U.S. Coast Guard:

    Testimony....................................................     5
    Prepared statement...........................................    44

                                Panel 2

Eric J. Terrill, Ph.D., Director, Coastal Observing Research and 
  Development Center, Scripps Institution of Oceanography:

    Testimony....................................................    18
    Prepared statement...........................................    48
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    58
Michael B. Jones, President, The Maritime Alliance:

    Testimony....................................................    18
    Prepared statement...........................................    62
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    66
Thomas S. Chance, Chief Executive Officer, ASV Global, LLC:

    Testimony....................................................    18
    Prepared statement...........................................    70
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    73
Christopher J. Coyle, Member, International Ocean Science and 
  Technology Industry Association:

    Testimony....................................................    18
    Prepared statement...........................................    77
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    81
H. Tuba Ozkan-Haller, Ph.D., Professor and Associate Dean, 
  College of Earth, Ocean, and Atmospheric Sciences, Oregon State 
  University:

    Testimony....................................................    18
    Prepared statement...........................................    89
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................    94
Rear Admiral Jonathan White, U.S. Navy (Ret.), President and 
  Chief Executive Officer, Consortium for Ocean Leadership:

    Testimony....................................................    18
    Prepared statement...........................................    96
    Responses to questions for the record from Hon. John 
      Garamendi, a Representative in Congress from the State of 
      California.................................................   102

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Jonathan White, U.S. Navy (Ret.), President and 
  Chief Executive Officer, Consortium for Ocean Leadership, post-
  hearing supplemental information to remarks made to Hon. Stacey 
  E. Plaskett, a Delegate in Congress from the U.S. Virgin 
  Islands 




                        ADDITIONS TO THE RECORD

Written statement of Brian Wynne, President and CEO, Association 
  for Unmanned Vehicle Systems International.....................   106
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
    BLUE TECHNOLOGIES: USE OF NEW MARITIME TECHNOLOGIES TO IMPROVE 
                   EFFICIENCY AND MISSION PERFORMANCE

                              ----------                              


                          TUESDAY, MAY 8, 2018

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr.  Hunter. Good morning. The subcommittee will come to 
order.
    Today the subcommittee will hear testimony on how emerging 
maritime technologies can improve the efficiency and 
performance by the Coast Guard.
    The Coast Guard performs many important missions, from 
defense readiness and migrant and drug interdictions, to search 
and rescue operations and fisheries law enforcement. However, 
since 2010, annual administration requests for the Coast Guard 
have not been adequate for the Service to acquire new assets to 
perform its 11 missions at a rate that keeps up with those 
mission needs.
    This subcommittee has urged the Coast Guard to strongly 
advocate for the resources it needs to acquire the assets 
necessary to conduct its missions. The National Security Cutter 
acquisition program has exceeded the program of record; the 
Fast Response Cutter acquisition program is getting close to 
completing the program of record; while the Offshore Patrol 
Cutter and polar icebreaker acquisition programs are only just 
beginning.
    The reality of the Coast Guard's operational situation is 
that even with new assets, the Coast Guard has a big job to do. 
This subcommittee recognizes that technology can be a tool to 
fill any operational gaps in a cost-effective manner.
    Unmanned systems, navigation technologies, and new cell 
phone technologies are all tools that the Coast Guard can use 
to improve their mission performance. These technologies can 
improve the Coast Guard's maritime domain awareness and help 
the Coast Guard more effectively target the use of expensive 
manned assets. The Coast Guard needs to use every tool out 
there.
    The Coast Guard cannot accomplish all their missions by 
simply putting their service men and women on cutters, 
helicopters, and planes. The Service needs to be smart and 
strategic about where to place its assets and use its 
personnel. This is where data and technology can help.
    For example, Indonesia has partnered with Google to catch 
illegal fishing in realtime. Google co-founded Global Fishing 
Watch, an online mapping platform. Fishermen, or pirates, turn 
off their tracking system when they are illegally fishing, but 
Google's mapping platform is able to use machine learning to 
study vessel movement patterns to locate them.
    This was all done using Government-owned vessel monitoring 
system data in the mapping platform and adding new raw 
satellite imagery to produce a detailed footprint of fishing 
activities, revealing 5,000 previously invisible boats, and 
allowing Indonesian law enforcement to address illegal fishing 
in its waters.
    This subcommittee will keep pushing the Coast Guard to be 
innovative. The types of technologies we will discuss today can 
help the Coast Guard strategically and more effectively use its 
assets.
    There is no replacement for trained and capable 
servicemembers, but if the Coast Guard makes better use of 
technology, this can make servicemembers' jobs more effective 
and safer.
    I held a roundtable in San Diego in February and met with a 
variety of companies that are working on new maritime 
technologies. I know we have some of those panel members with 
us today as well as other experts. I look forward to learning 
about the current technologies that exist right now and the 
technologies that the Coast Guard is using and working on to 
use in the future.
    Lastly, I want to say when we are at the Joint Harbor 
Operations Center there in San Diego where the Coast Guard 
operates out of, now you have a Harbor Police desk inside the 
Coast Guard operations center where you can see the entire 
Coronado Bay, all of the San Diego Bay, all of the Naval 
Institution, everything. You can see around the entire area in 
realtime.
    And the Coast Guard cameras are operated by National 
Guardsmen. When the two National Guardsmen who were watching 
the Coast Guard cameras, and this was about 2 months ago, left 
to go to Ukraine, I think, or Georgia to help train people, 
those two seats were empty. The Coast Guard did not have 
anybody there.
    So even with the technology and the cameras and the assets 
to be able to look at the entire San Diego Bay, they were 
saying, ``Well, that is great, but we cannot do it because we 
lack two people.'' So that was not a technology issue. That was 
a manning problem, which they are fixing now.
    But it was great to see at least that technology being in 
place and tied in with the Harbor Police and everybody else in 
the San Diego Bay region.
    So I would like to thank our witnesses for being here today 
and I look forward to hearing their thoughts on these issues.
    And I yield to Ranking Member Garamendi.
    Mr.  Garamendi. Mr. Chairman, thank you so very much.
    I appreciate the opportunity to delve into these blue 
technologies and discuss their potential to transform how we 
envision both the maritime infrastructure and emerging 
information systems and the technologies that drive 
advancements in science and industry.
    The hearing could not come soon enough. Over the past 
decade, countries around the world, especially China and the 
European Union, have turned their attention to their coasts and 
oceans to investigate the potential of maritime-related 
industries, ocean resources as a major source of new jobs and 
economic growth.
    The U.S. would be well advised not to ignore this push by 
other nations to expand their economic opportunities in the 
maritime economy. If we do ignore it, we risk falling behind 
the development, testing, and deployment of the new blue 
technologies driven by marine data that is easily accessible, 
interoperable, and we squander future opportunities to develop 
new products, services, and applications to strengthen and 
diversify our maritime economy.
    Fortunately, many of the folks here have not been sitting 
idly on the sidelines. In fact, each of our witnesses here this 
morning can attest to numerous achievements thus far and 
examples of innovation.
    For instance, a leading edge, very high frequency-frequency 
modulation--VHF-FM--communication systems, known as Rescue 21, 
is the Coast Guard's new advanced command, control, and 
direction-finding communications system that has enabled the 
Coast Guard to execute its search and rescue missions with far 
greater agility and efficiency.
    Another example is the physical oceanographic real-time 
system, or PORTS [Physical Oceanographic Real-time System], a 
decision support tool developed by the National Oceanic and 
Atmospheric Administration that improves the safety and 
efficiency of the maritime commerce and coastal resource 
management through the integration of real-time environmental 
observations, forecasts, and geospatial information.
    I am sure we will hear from witnesses about these and other 
activities.
    A recent article in the Maritime Executive focused on 
Russian activities in the Baltic and eastern Mediterranean to 
jam and disrupt GPS systems that vessels rely upon, and we will 
explore some of that with our witnesses.
    Considering that many blue technology systems rely on 
satellite telemetry and precision signals for timing, 
navigation, and communication, what would happen to these new 
assets, whether they are unmanned gliders or maritime 
electronic navigational systems, if their GPS signals were 
disrupted either intentionally or unintentionally.
    Presently, the U.S. has no active domestic backup timing 
and navigational system should GPS go down, and I think you 
have heard me speak on this before. So I will not go on 
further, except to say that former Secretary of Defense Ash 
Carter said it correctly. GPS is a single point of failure. So 
a piece of work we need to do.
    A fascinating hearing. We are going to hear from others. 
There is so much that we need to do in this domain and in this 
area so that the blue technology systems are American and used 
by our mariners and our military.
    So with that in mind, let me conclude by welcoming our 
witnesses. I look forward to hearing from you, and I hope to 
engage all of you in questions.
    I yield back my time. Thank you, Mr. Chairman.
    Mr.  Hunter. I thank the gentleman from California.
    And this is a great panel, which we have one person----
    Mr.  DeFazio. Can I go?
    Mr.  Hunter. Oh, Mr. DeFazio is recognized for an opening 
statement.
    Mr.  DeFazio. It is early, Duncan. Thank you.
    Thanks very much for having this hearing. You know, this is 
an area where the Government should be investing a significant 
amount more money in acquiring new technologies, not just for 
the Coast Guard, but for those who research the oceans.
    Seventy percent of Earth's surface: ocean. We have explored 
thoroughly about 10 percent of it, and 50 to 80 percent of the 
life on Earth exists in the oceans.
    You know, we are a maritime Nation. It is incredibly 
critical to our future that we not be left mired in the 20th 
century when other nations are employing 21st-century 
technology to better understand our oceans and in some cases 
exploit our oceans, in some cases exploit to the point of being 
unsustainable. We need to better understand the majority of 
Earth's surface.
    And I really want to thank the chairman for holding the 
hearing, and I want to acknowledge Dr. Tuba Ozkan-Haller. She 
is a professor of civil and construction engineering at Oregon 
State University. She is the associate dean of the College of 
Earth, Ocean, and Atmospheric Sciences.
    We had a little brief discussion beforehand. I know that 
for one thing we have underfunded the deep-ocean buoys. I have 
been working both for earthquake detection, remote sensing out 
near where the tectonic plates meet off the northern 
California-southern Oregon coast.
    And I have also been very concerned about the lack of 
capability of just doing more mundane things like detecting 
wave heights and directions and that for coastal shipping 
safety and mariners, and others, and also so we can better 
understand these oceans if we want to deploy or hope to deploy 
wave generation systems or wind generation systems on the 
ocean's surface. We need to know a lot more about what is going 
on out there.
    So I think this is critical for the Coast Guard, critical 
for the United States of America, critical for the future of 
our economy.
    With that, I thank the chairman and yield back the balance 
of my time.
    Mr.  Hunter. I thank the ranking member of the full 
committee for being here. It is always a great honor to have 
him and shine some light on what we are doing here as well.
    I just want to say when I got into this about 6 years ago 
when I became the subcommittee chairman, I had gone to 
somewhere in Silicon Valley and saw a thing that the guy that 
invented Java was working on, floating surfboards that can 
sense oil in the water and has sensors on it and can drive 
themselves infinitely, for a long time.
    So I came back, and it was one of my first subcommittee 
hearings here, and I asked the Coast Guard. We went through all 
of the language in Coast Guard regulations to see what they 
would classify that as, and it came back as ``floating 
debris.'' That is what the Coast Guard lawyers would call it, 
the guy who invented Java's surfboard that can sense stuff. It 
was classified as ``floating debris.'' That was 6 years ago.
    I think things have changed. So if you could tell us how 
things have changed, it would be great.
    Rear Admiral Michael Haycock, Assistant Commandant for 
Acquisition and Chief Acquisition Officer for the United States 
Coast Guard, you are recognized.
    Thank you for being here.

    TESTIMONY OF REAR ADMIRAL MICHAEL J. HAYCOCK, ASSISTANT 
COMMANDANT FOR ACQUISITION AND CHIEF ACQUISITION OFFICER, U.S. 
                          COAST GUARD

    Admiral Haycock. Chairman Hunter, Ranking Member Garamendi, 
distinguished members of the subcommittee, Congressman DeFazio, 
thank you for the opportunity to speak about the Coast Guard's 
ongoing efforts to pursue new technologies and solutions that 
have great potential to enhance our mission success.
    I thank you for your oversight and your continued support 
of our Service, and I ask that my full written testimony be 
included as part of the official record.
    As the Assistant Commandant----
    Mr.  Hunter. Do you mind pulling up the microphone a little 
bit closer to you, too? Thank you.
    Admiral  Haycock. Is this better?
    As the Assistant Commandant for Acquisition, I have several 
opportunities to testify before this body on the Coast Guard's 
programs, to revitalize our aging fleet of cutters and 
aircraft, boats and support systems. And with the support of 
the Congress, and especially this subcommittee, we are making 
real progress towards delivering the assets and the 
capabilities that our men and women in the field need to 
execute the missions for the American people.
    Our continued operational success will require a broad 
portfolio of complementary programs and activities that are 
built upon a foundation of innovation, integration, and 
strategic vision.
    One such program is the Coast Guard's Office of Research, 
Development, Test and Evaluation, which supports research and 
innovation across the entire span of the Coast Guard's 
missions. The Coast Guard RDT&E project portfolio is closely 
aligned with the mission needs and the priorities that are 
identified by our operational community.
    Because the program is relatively modest, we are constantly 
looking at ways to best leverage partnerships with DHS 
[Department of Homeland Security] and DoD [Department of 
Defense] research entities, national laboratories, academia, 
and industry to best support the Coast Guard's needs.
    One example of leveraging partnerships is our Research and 
Development Center's effort with the DHS Science and Technology 
Directorate to form the DHS/Coast Guard Science and Technology 
Innovation Center, also known as the STIC. This joint Coast 
Guard and DHS team is focused on rapidly transitioning 
innovative technologies into the hands of our operational 
community.
    We are also working with DHS Centers of Excellence on 
projects related to maritime cybersecurity and in the Arctic as 
well.
    We are also at the table with the Defense Advanced Research 
Projects Agency, also known as DARPA, to look at counter-UAS 
[unmanned aerial systems]. We have conducted in situ burning 
testing at the Joint Maritime Test Facility in Mobile, Alabama, 
through partnerships with entities such as the Bureau of Safety 
and Environmental Enforcement and the Naval Research 
Laboratory.
    We also collaborate with industry through numerous 
cooperative research and development agreements, also known as 
CRADAs. These agreements are mutually beneficial in providing 
industry partners with access to real world requirements while 
keeping the Coast Guard abreast of the latest developments in 
technology.
    We have formalized these cooperative R&D agreements with 
industry leaders such as Mercury Marine, Lockheed Martin, 
Conoco Phillips, and several others, and right now we are 
looking at a number of ways to increase the number of 
partnerships with smaller innovative technology companies as 
well.
    This year marks the RDT&E program's 50th anniversary, and 
throughout the program's history, it has delivered products and 
capabilities that are vital to carrying out or Coast Guard 
missions. Projects have been driven by events such as Exxon 
Valdez, hurricane responses, Deepwater Horizon, and the recent 
sinking of the SS El Faro.
    We have led research in oil spill mitigation, development 
of electronic navigation, and other research areas important to 
mariner safety and commerce. Last year was one of our busiest 
years to date. When the Coast Guard swung into action as 
Hurricane Harvey swept through the gulf coast, the RDT&E 
program was there.
    We used our innovative crowd sourcing platform to collect 
real-time lessons learned from responders on scene. The 
responders told us stories about sending 50 small rescue boats 
and 28 helicopters into the storm with limited ability to track 
the rescuers or the assets that they were in.
    The Research and Development Center in New London, 
Connecticut, immediately sprung into action and began 
prototyping small, affordable, off-the-shelf tracking devices 
that could provide our operation commanders with options for 
greater situational awareness even under the most challenging 
conditions. The program is nimble, and it is able to respond 
quickly.
    In addition to meeting emergent needs, the R&D program is 
working to help strategically position the Coast Guard for the 
future. With the ever-increasing level of automation within the 
Maritime Transportation System, we are working to stay ahead on 
cybersecurity challenges and threats. The program is developing 
improvements to communications capability and domain awareness 
in the Arctic, and we are collectively excited about the 
potential improved mission effectiveness made possible by 
machine learning and artificial intelligence and augmented 
reality and other emergent technologies.
    The program is looking at potential Coast Guard uses for 
autonomous and semi-autonomous systems from the seafloor to 
space, as directed by Congress.
    Technology changes at a very rapid pace, and the 
researchers and the engineers and innovators in our RDT&E 
program are poised to find efficiencies, reduce risk, and 
explore technologies to optimize mission performance.
    As the Service moves in new directions, research and 
development will be increasingly vital to provide this 
knowledge for the Coast Guard.
    I thank you for the opportunity to testify before you 
today, and I look forward to your questions.
    Mr.  Hunter. Thank you, Admiral. I appreciate it.
    I want to bring up a couple systems and a couple example of 
things that are not crazy. They are not seafloor to space. They 
are not big disruptors, but something like the long-range 
acoustic device, the LRAD, which when I was in San Diego, they 
had a couple on Coast Guard ships now. I think one or two 
little cutters have been using them down in Florida.
    The Navy has had these for over 5 years on every single 
Navy ship, and for everybody that is watching or listening, it 
is a speaker, and you are really loud when you talk on it. That 
is what it is. It is called long-range acoustic device. You can 
hail people at like 100 meters away, and they can hear you in 
the pilothouse of the boat when you are yelling at them.
    I thought it was amazing that the Coast Guard are the 
people who yell at people to get out of an area don't have 
that, and the people who shoot at people do have that. 
Literally every Navy ship has them, and the Coast Guard is 
still testing as of 2 months ago, after 5 years of Navy use.
    That is unacceptable. There is no reason to be testing 
something that the Navy has been using for 5 years on literally 
every single Navy surface ship that is now on one Coast Guard 
ship.
    Another example are Predators. You talk about autonomous 
vehicles, remotely piloted vehicles, unmanned vehicles, 
artificial intelligence vehicles. You don't have them. 
Everybody else has been using them but you.
    You are the smallest force. You have the fewest number of 
people. You get the least amount of money every year, and you 
are the slowest to adopt technologies that can leverage your 
undermanned Service in accomplishing your 11 missions. But you 
are the slowest to adapt those technologies, and that is why we 
are having this hearing today.
    So I guess the first question I have is a number of 
unmanned marine systems are being developed that have the 
ability to act as a force multiplier. We are talking about any 
kind of UAV [unmanned aerial vehicle] that has a maritime 
sensor, and that is quite a few now, and you can slap different 
maritime sensors on any kind of UAV, big or small.
    Such systems have long endurance. It can detect illicit 
vessel traffic, and some can even act as a visual deterrence, 
and who knows yet what we can have them do when it comes to 
turning off motors, doing things like that where they can zap 
these fast boats if there is not a marine layer or something 
like that where they can see.
    So has the Coast Guard explored the use of these systems to 
improve demand awareness in transit zones?
    And what role do you foresee in the future?
    And let us go back to the previous Commandant. Admiral 
Zukunft said that he did not want Predators or UAVs off the 
coast of San Diego or Florida. He wanted them flying over South 
and Central America so they could get good keys and cues on the 
bad guys coming north, not necessarily when the boat is going 
70 miles an hour in the ocean off of Orange County.
    So that was what he had talked about and kind of his 
vision, and I would like to hear now how that is going to play 
into what you think and what the new Commandant thinks of doing 
that, or whether he wants to see UAVs off the coast of Orange 
County.
    Admiral  Haycock. Thank you.
    The unmanned aviation systems come in a variety of 
capabilities and sizes. So the one you are talking about or 
most recently were talking about were the semi-long range and 
ultra-long endurance UAVs.
    And thanks to Congress and this subcommittee, we received 
money in fiscal year 2017 to actually explore that and actually 
do a demonstration of that.
    We have worked with folks at DHS, in particular, the PEO 
[Program Executive Office] for UAV systems at DHS, and Customs 
and Border Protection as well, and we have been working 
together for the last year or so to put that program into 
place, and I am excited to announce that we actually issued the 
request for proposals last week to actually get that 
demonstration in place to see how that technology can be used 
in the Coast Guard for long range.
    In kind of the middle-range area, we make great strides on 
a small UAS that we can deploy on our ships. So we actually 
have kind of a prototype system over the last several years 
with Coast Guard cutter Stratton. So we deployed a UAS onboard 
for three or four deployments, and that UAS has provided great 
capabilities, and our crews love them. They provide maritime 
domain awareness on sight.
    Mr.  Hunter. What is it? What UAS system or what UAS?
    Admiral  Haycock. It is the Insitu ScanEagle, sir.
    Mr.  Hunter. ScanEagle, got you.
    Admiral  Haycock. Yes. So that is a catapult-launched asset 
that we launch off the flight deck. We launch it up in the air. 
It provides intelligence, surveillance, reconnaissance 
capabilities.
    We have had to develop policy to make that happen, but it 
has been working phenomenally. It has contributed to drug busts 
in theater, to a number of these things, and the crew loves it.
    And I am excited to announce that probably in about 2 weeks 
we will be issuing or we will actually be awarding a contract 
to put that capability on eight NSCs for the next 5 to 8 years.
    And that is technology that our fleet loves, and they are 
going to be really excited to get that deployed.
    Finally, in kind of the short range, kind of the hand-
launched area, our Assistant Commandant for Capabilities has 
authorized our small boat field units to go out and procure 
some of the smaller UAS to test them, find out what sort of 
utility they have in the field, and then we will use those 
lessons learned to go out and create a policy and then go after 
a kind of a standard asset.
    Mr.  Hunter. The last thing I would recommend, you have had 
Special Forces, Army and Navy and Marine Corps, and the Navy 
just in general, on small boats launching UAS for a decade now, 
for about 10 years. So they are about 10 years ahead of you, 
the non-sea services are already ahead of you, including Army 
and Marine Corps sea service.
    I think you have got some catching up to do. Can you tell 
me really quick the difference between launching an unmanned 
vehicle off of a Navy ship compared to launching an unmanned 
vehicle off of a Coast Guard ship?
    Do the ships float differently or what is the difference?
    Admiral  Haycock. So the primary difference between the way 
we use our ship-launched UAS and probably the Navy is we have 
slightly different mission sets, and so we need our assets to 
provide ISR [intelligence, surveillance, and reconnaissance] 
for long periods of time. So we are looking for assets that can 
be up for 12 or more hours off the ship to kind of increase our 
awareness of what is going on around the actual ship itself. It 
increases our visibility.
    We have to contend with weather. We typically find 
ourselves going----
    Mr.  Hunter. Wait. The question is: What are the 
differences?
    So the Navy contends with weather. They contend with 
different ship sizes and different things, too. So when you are 
in the ocean and a Navy ship is in the ocean. It is the same 
size ship. What is the difference between them being able to 
launch UAS and having been doing so for years and the Coast 
Guard?
    I mean, what is the technical difference of launching a UAS 
off a Coast Guard ship in the same ocean that a Navy ship is 
sitting?
    They are the same size ships. They are in the same ocean. 
What is the difference?
    Admiral  Haycock. There are no technical differences 
between the two assets.
    Mr.  Hunter. Should there be a Navy-Coast Guard joint 
program office for unmanned systems as well, like the 
icebreaker so we can get everybody on the same page?
    Because the Navy has more money, as we all know, more 
people, more testing, the ability to do this because they have 
been doing it for longer. They are not jumping through hoops 
anymore.
    I mean it is a great system to probably copy in your own 
way is what I am saying.
    Admiral  Haycock. As you know, our integrated program with 
the Navy on icebreakers has been a phenomenal endeavor so far. 
We have made great progress.
    I don't know that we need that for the UAS because we have 
actually made phenomenal progress on this endeavor as it is so 
far. We are on the cusp of actually deploying that here on all 
of the NSCs. So I don't know that we need help at this point in 
time.
    It might have been helpful if we had done it years back, 
but I think we are in a good place, sir.
    Mr.  Hunter. But, again, you are talking about ScanEagle, 
which is extremely old technology with hopefully new sensors on 
it, but this is not groundbreaking, right?
    It is a little bit late to the game, but better late than 
never.
    Admiral  Haycock. Well, I don't know what system we will 
actually be deploying because we have not awarded that contract 
yet. The prototype was ScanEagle. We have not identified any 
major issues with ScanEagle. That UAS has done phenomenal for 
us, and we are really excited about awarding the contract and 
getting this permanently on the ships.
    Mr.  Hunter. Thank you.
    I yield to the ranking member, Mr. Garamendi.
    Mr.  Garamendi. The chairman is working on a line of 
questioning that I think is really important here, and that is 
the adoption of new techniques and technology. And apparently 
the Coast Guard in its adoption process is slow to adopt, and 
the questions that I would like to get to really are the 
organizational structures that would retard the adoption of new 
technologies, new techniques, equipment, and so forth.
    Let us start with the budget for the development, testing, 
and evaluation program. I think you are requesting like $17.2 
million, which is 47 percent less. Why?
    And if this particular budget or line item is critical in 
the adoption of new techniques, technologies, and equipment, 
why the reduction?
    Or maybe this isn't where the problem lies. Could we just 
go into that for a few moments?
    Admiral  Haycock. Our R&D budget has been fairly consistent 
over the years. I am wondering if you are talking about the 47 
percent because of the $18 million plus-up for the long-range 
UAS.
    You know, we have been operating at around $18 million for 
the last several years for the R&D budget, and that gets us 
where we need to go. It would obviously be better if we had 
more, but we find ways of getting around that by leveraging the 
other entities out there that have done some of this work.
    One of the things we are trying to prevent ourselves doing 
is recreating the wheel, duplicating efforts done by others. 
And so one of the things we do is we partner with the national 
laboratories, the Naval Research Lab.
    We just recently got into an agreement with the Air Force, 
the first of its kind, to leverage some of the stuff they are 
working with; you know, working with the DHS Science and 
Technology Directorate.
    So we do these things to kind of augment that and make up 
for, you know----
    Mr.  Garamendi. Well, you know, all well and good. The 
notion of working with other agencies and using their knowledge 
and testing, excellent. How then does that get into the 
operations of the Coast Guard?
    How do you transition that information?
    I am looking at the organizational structure. There is 
something here that isn't working smoothly. Technologies are 
readily available, techniques, but the Coast Guard isn't 
adopting them.
    As the chairman was driving into this, what is it in this 
organizational structure that is retarding the integration of 
these new systems into the Coast Guard's daily operations?
    If it is not this RDT&E, apparently that is not important, 
and you are able to make up for the less money by utilizing 
other agencies. Then that information, that knowledge from 
other agencies has to find its way into the Coast Guard. How 
does it get there?
    How is it acquired?
    Admiral  Haycock. There are a number of ways we do this. 
One of the things we tried to do recently is we are trying to 
spur more innovation within the Service. So we have stood up an 
Innovation Council, which has senior leaders here at 
headquarters that are engaged in RDT&E efforts, to provide 
guidance and oversight.
    We have created a crowd sourcing platform that has gotten 
great use over the last year or so, where we basically allow 
folks at all levels in the organization, from military, 
civilian, you know, young, new sailors all the way up to senior 
officers can all provide input on various topics that we put in 
the crowd sourcing platform. That allows us to get new ideas to 
go after.
    The second thing we do is we use that information to create 
a portfolio of things we believe are the best return on 
investment for the Coast Guard.
    Since I arrived in CG-9 last spring, one of the things I 
have asked the Research and Development Center to do is place a 
greater emphasis on the actual transition of the research and 
development efforts into products that the operational Coast 
Guard can use. So now our folks up there, when they do this, 
they also look at, OK, what is the next step in the process. 
How do we go about putting this into the operational user's 
hands in the Coast Guard?
    Mr.  Garamendi. Can you develop and deliver to the 
committee a portfolio, the word you used, of ideas, products, 
techniques, technologies that are currently being looked at by 
your organization?
    Something is amiss here, the adoption and the openness to 
new ideas. Like how does an individual from--I don't know--say 
Scripps who has developed a great sensing device that could be 
used on one of your ships get to your office so that you can 
acquire that knowledge, that technique?
    In other words, is your door open?
    Admiral  Haycock. Yes, sir, the door is definitely open, 
and we are excited about opportunities to do this sort of 
thing.
    Mr.  Garamendi. There is a whole series of questions. I can 
go on for some time here about this. We sense that there is a 
slowness, a reticence within the Coast Guard to adopt new 
techniques, new technologies, new equipment. The chairman gave 
three different examples a moment ago.
    What is it about the organization that is retarding the 
acquisition of these new systems?
    Just for example, we know that the Offshore Patrol Cutters 
are someday going to get out there. In the meantime we have 
ancient equipment that is not terribly reliable. What are we 
doing in the intervening period to use these new systems, to 
understand the domain, the maritime domain?
    Are we open to that? Are you open to that?
    Admiral  Haycock. We are open to that.
    Mr.  Garamendi. And what are you doing in your openness?
    Admiral  Haycock. Well, part of it is we need to know that 
it exists, and that is one of the key roles our Research and 
Development Center plays, is getting out there and finding out 
what sort of technology exists.
    So the folks at the R&D Center are constantly on the prowl. 
They are out there visiting folks. They are doing research 
online. They are attending conventions. They are having 
meetings with technology centers, things of that nature so that 
we are aware of those capabilities.
    The next step, after you have been made aware of this, you 
have got to prioritize it and make sure you are using your 
resources for those things that bring the best value to the 
operator out in the field.
    We have a process for that, and that process starts usually 
in the end of the summer, and we get input from the field, and 
then we later in the winter we actually bring people together. 
Usually we get an external look from the Naval Research Lab, 
S&T, the chief scientist for DHS. We will bring all of these 
senior folks into the room, and we will go through all of these 
projects in detail to determine which ones make the most sense 
for the Coast Guard to go after.
    And then we put that portfolio together, and then that is 
the marching orders for the R&D Center, and they go out and 
they go after this.
    Mr.  Garamendi. Your title is Commandant for Acquisition 
and Chief Acquisition Officer, and I know this committee puts a 
lot of pressure on you for things like icebreakers and other 
major pieces of equipment. I think we are putting more pressure 
on you about these other systems, not the big ones, but all of 
the systems that make the icebreaker more effective, more 
efficient; the Offshore Patrol Cutters more effective, more 
efficient.
    And these are not the big, flashy things, but these are 
UAS, other devices that expand the ability of the Coast Guard 
to carry out its many, many tasks.
    And so just since you have such broad shoulders, in 
addition to the major acquisitions and the recapitalizations 
that are underway, these other things, my question really goes 
and my issue really goes to the organizational structure that 
provides the open door for these systems to be brought to the 
Coast Guard and then implemented along the way.
    So I am going to drive at that. Right now I think I have 
taken much more time than I would otherwise have available, but 
the specific question: How could the Coast Guard improve its 
interactions with the blue technology industries and firms 
sufficient to keep the Coast Guard abreast of the latest 
development and innovations?
    So this is an organizational question for which I will be 
driving, and I suspect the committee will drive, too.
    So thank you very much for that. I yield back.
    Mr.  Hunter. I thank the ranking member.
    Mr. Graves from Louisiana is recognized.
    Mr.  Graves of Louisiana. Admiral, thank you for being 
here.
    I want to start out with something that is perhaps not in 
your column but affects the Coast Guard nonetheless. We 
recently had a boating accident off the coast of Louisiana 
where three folks were out there, and I have been on the phone 
with numerous Coast Guard men and women over the past several 
days, including the commander sitting behind you, and I do want 
to give a big shout-out to the Coast Guard for their efforts on 
that search and rescue. That is our mission.
    I know you had a lot of assets out there. I know you were 
working very closely with the Louisiana Department of Wildlife 
and Fisheries, the Plaquemines Parish Sheriff's Office. 
Certainly all lives are important.
    One of the gentlemen who was lost really had a 
transformational effect. My own town of Baton Rouge started a 
church after the Billy Graham crusade and saved a lot of lives 
in many, many ways.
    So I just want to thank all of the men and women of the 
Coast Guard for their efforts overnight and countless hours and 
airplanes, helicopters and boats, assisting in that mission. 
Very, very important. So thank you.
    Changing gears a little bit, can you talk a little bit? 
Your testimony makes reference to some of the research and 
development and perhaps advances that you have made in oil 
spill technology. You talk specifically about in situ burns at 
your facility in Alabama.
    Can you talk about other advancements that the Coast Guard 
is involved in, but perhaps also collaboration with industry in 
the aftermath of Deepwater Horizon?
    Admiral  Haycock. First, thank you for recognizing the 
efforts of the Coast Guard. The folks that go out there and do 
the rescues, they don't do it for the recognition, but they do 
appreciate the fact that people notice. They are just doing 
what they are trained to do, and we appreciate the support, and 
we appreciate the support of the committee, as well.
    The Joint Maritime Test Facility down in Alabama is a great 
national asset. We partner with BSEE [Bureau of Safety and 
Environmental Enforcement] and Department of Energy and others 
to make best use of that.
    Technology is changing all the time, and as we look at 
things like response to oil spills, we can use that facility to 
try different techniques to mitigate the oil spill. So that 
facility is up and running and we get great support on that, 
and we get a lot of collaboration with industry to make that 
happen.
    We take our oil spill responsibilities very seriously, and 
one of the things we have recently done--I think the committee 
will be happy to know--is we have looked at things like how do 
you recover oil that is sinking in the water column. How do you 
detect it and go after it?
    So we actually just completed a test recently here in that 
endeavor, looking at how do you best recover that. So we have 
got some great data from that. We are going to use that data to 
figure out what is the next step in that endeavor to improve 
our ability to mitigate oil spills.
    Mr.  Graves of Louisiana. First, I just want to ask if you 
all could on the record or perhaps coming back and giving us a 
briefing on updates on some of the efforts by private industry 
to improve safety techniques because certainly you need to be 
working in collaboration with them.
    I know that they have made substantial progress in new 
safety techniques and collection devices and other things, and 
I think it is important that the Coast Guard and industry are 
working very closely together.
    Again, I have been briefed on a lot of technology they have 
developed, and it really is impressive.
    In regard to the oil sinking, the only time I have really 
seen that happen is in the case of Deepwater Horizon when you 
all hit it with the dispersant below the surface. Otherwise I 
think the oil comes up. The only other instance is when it 
binds with the fine silts and sands and, therefore, changing 
the weight of it.
    But I think there are a lot of lessons learned from 
Deepwater Horizon that can be applied if there, and we all hope 
there is not, if there is another oil spill disaster like that.
    But, again, I would like to follow up with you on some of 
those technologies.
    Next, Arctic strategy. We sent a letter last month to the 
Commandant and the CNO [Chief of Naval Operations] regarding a 
joint Arctic strategy. I think a number of us are very 
concerned, and I think I can speak for everyone up on this 
panel. All of us are very concerned about the apparent separate 
or siloed Arctic strategy approaches by the Navy and the Coast 
Guard.
    Obviously, both of you are critical in that region. We have 
seen the advances of Russia, China, and other countries. We 
have discussed it ad nauseum in this committee about the fact 
that the United States is far behind other Arctic nations in 
terms of capabilities, icebreaking and others.
    Could you talk a little bit about the importance of a joint 
strategy, what you all are doing to have a joint strategy with 
the Navy?
    Admiral  Haycock. You have indicated, and I think we would 
recognize, that working together with the Navy is an important 
part of the Arctic strategy, and I think we would welcome that 
and we would go after that.
    I don't have the details because that is more of an 
operational concern. I would really need to get back to you on 
that one, sir. I wish I could answer that.
    Mr.  Graves of Louisiana. Admiral, again, I think it is 
very important that we have a joint strategy. You all worked 
seamlessly with the Navy in other parts of the world. You do a 
great job. You have a common mission. Your platforms are 
compatible. I think that all of us feel very strongly that 
having a similar relationship with the Navy in the Arctic is 
important.
    The last question: Could you talk a little bit about, and I 
think this is in your wheelhouse, the role of dynamic 
positioning autonomous vehicles and others in the Arctic and 
how perhaps advances in regard to Arctic platforms, how those 
two issues come into play there?
    Admiral  Haycock. Autonomous systems are a very important 
part of the future in the Arctic. We need to make sure that 
vessels navigating in the Arctic regions and those that are 
taking station up there for resources, oil exploration, that 
sort of thing are safe and can operate up there, basically 
responding to all of the risks and such.
    So we welcome the opportunity to work with industry to 
further explore those things.
    You talked a little bit about the Deepwater Horizon and 
some of the folks down in your area that have developed some 
interesting lessons learned and some technologies. We welcome 
the opportunity to work with those folks to take advantage of 
those technologies.
    Really what it comes down to, sir, is if we are aware of 
something that goes on, we are interested in trying to take 
advantage of it and leverage it for the purposes of maritime 
safety.
    Mr.  Graves of Louisiana. I just want to clarify that I am 
talking about for purposes of the Coast Guard's assets, the 
role that dynamic positioning and autonomous in Coast Guard 
assets, but I know I am over time. Let me yield back.
    Mr.  Hunter. I thank the gentleman.
    Ms. Plaskett, you are recognized.
    Ms.  Plaskett. Thank you very much.
    Thank you so much for being here and providing this 
testimony in what I think is really important technology that 
you are working on.
    I wanted to ask you questions that were more related not so 
much to the research, but the application of the technology in 
different areas, and the first one is with regard to some of 
your duties and your mandate in the Caribbean related to 
illegal drug trafficking.
    There is a tremendous flow of drugs and weapons between the 
U.S. Virgin Islands, the British Virgin Islands, the area of 
Puerto Rico. On all sides, all of these islands are completely 
surrounded by water, and you all stand in many instances as the 
first line of defense for us in the flow of those drugs and 
weapons from the Virgin Islands into the mainland.
    And what I was wondering is some of the technology that you 
have spoken about today and is in your written testimony. What 
is the application of those technologies in that area, and how 
might it be used to further stem the flow of those illegal 
drugs and weapons?
    Admiral  Haycock. So some of the technologies that can be 
used up there include biometrics and improving our 
intelligence, surveillance, and reconnaissance capabilities 
through the use of UAS. In particular, the biometrics, we have 
employed that starting with our 110-foot patrol boats a number 
of years back, and we have actually taken that program and 
expanded it to other assets, such as the Fast Response Cutters.
    Really our key is to identify those threats before they 
make landfall, push our borders out, and so our use of things 
like the UAS and having that ability to identify those threats 
far out is probably the first key.
    Ms.  Plaskett. And how does the technology do that?
    How do you improve the maritime domain awareness to be able 
to do that since there is no way you could have sufficient 
number of actual vessels in the waters to be able to protect 
the islands?
    Admiral  Haycock. Thank you.
    We work with other agencies in terms of law enforcement. So 
we work with DoD employing some of their ISR capabilities. We 
work with the FBI [Federal Bureau of Investigation] and other 
organizations, and we share information.
    So the information that we get, that we get from our 
assets, we feed that common operational picture for the other 
agencies, and we extract information from that as well so we 
can do a better job at being at the right place at the right 
time to engage with the trafficking.
    Ms.  Plaskett. OK. I guess I was just trying to drill down 
into was there any specific technologies that would be more 
helpful or that you have been testing to be able to utilize in 
this area, but I understand your joint work with HIDTA [High 
Intensity Drug Trafficking Areas], in particular, and DEA [Drug 
Enforcement Administration] and others is really a first line 
of defense is what you are saying, correct?
    Admiral  Haycock. That is correct.
    Ms.  Plaskett. OK. One of the other things that is a 
concern to me, particularly the announcement. For many years we 
had an oil refinery in the Virgin Islands, and it is my 
understanding that our Governor is closing the deal on that 
reopening.
    Because the natural resources of the island are so 
particularly important to us, I am very concerned, and there 
are discussions of an underwater pipeline to be able to keep 
the vessels further offshore and pipe them into for refining.
    Can you tell me? I always have a concern about maritime 
accidents, as oil spills or grounding pose detrimental impact.
    Is the Coast Guard pursuing any new technologies to respond 
to oil spills or other maritime disasters which occur not just 
in the Caribbean, but on the gulf, in California, and other 
areas as well?
    Admiral  Haycock. The R&D Center has a lot of different 
projects that we work on, and we get $500,000 a year coming out 
of the Oil Spill Liability Trust Fund. We put that money to 
good use trying to find ways to mitigate accidents that have 
already occurred and to prevent accidents from occurring as 
well.
    Our prevention folks, the community of the Coast Guard that 
tries to prevent these sorts of things, works hard to train 
their people to make sure they know how to go about identifying 
problems before they occur, and then we try to share 
information we get, and we hold people accountable when they 
don't do what they are supposed to do to keep things safe.
    Ms.  Plaskett. Is this the use of crowd sourcing that you 
were talking about?
    In other areas that you have utilized, is this also 
utilized in oil spills or other natural disasters?
    Admiral  Haycock. Yes, ma'am.
    Ms.  Plaskett. OK. And from that crowd sourcing, are there 
partnerships that you have with private sector technology 
companies that might be utilized for more rapid response and 
mitigation of the damages from some of these?
    Admiral  Haycock. Yes, there are lots of opportunities 
there. The cooperative research and development agreements are 
one method we use to get with industry, to form partnerships.
    We provide an opportunity for them to get on the Coast 
Guard assets and test things, and then we have the opportunity 
to learn more about it and figure out how to adapt that for use 
in the Coast Guard.
    Ms.  Plaskett. Do you find that is really helpful having 
those partnerships with those technology companies or others? 
Is that working well, not just in terms of the technology and 
its application, but as Ranking Member Garamendi said, then 
being able to adapt to the culture of the Coast Guard, as well?
    Admiral  Haycock. Yes. These CRADAs have been very, very 
beneficial to us. It is a great relationship we have with our 
partners, and we are looking for ways to create more.
    Ms.  Plaskett. OK. Thank you.
    No further questions at this time. I yield back.
    Mr.  Hunter. I thank the gentlelady.
    I think to Mr. Graves' questions, too, really quickly, you 
are the Chief Acquisition Officer of the Coast Guard. So when 
he talks about the operation, I understand you are not the 
operational guy for the Coast Guard, but you are going to be 
the one answering and hearing all the operational needs when 
they ask you to then acquire a piece of gear to meet those 
needs.
    So you know. You have the answer to his question, whether 
you know it or not, because you are hearing what they want to 
acquire, and you will hear because that is what your job is.
    So, Mr. Graves, to your point, the Admiral is the Chief 
Acquisition Officer for the Coast Guard. So he is not the 
operational requirements guy for the polar icebreaker, but he 
is going to be getting all of the requests for all the gear 
that will fulfill the operational requirement needs.
    So you are the right guy to talk to, and I think you will 
have those answers going forward on what the Joint Program 
Office is looking for to be able to fulfill all needs, and I 
just hope that we make that bigger.
    I think you got my point earlier. There is no difference 
launching a UAS from a Coast Guard vessel and a Navy vessel. 
There is no difference.
    There is no difference shooting off of a Coast Guard vessel 
and shooting off of a Naval vessel. There is no difference 
launching a helicopter off a Coast Guard vessel and a Naval 
vessel as long as they are the same sized vessels. There is no 
difference, in the ocean, on a ship, and it is the same thing.
    So why did it take 5 years to get a loudspeaker on Coast 
Guard ships? It is a mounting issue. I know you cannot mount it 
where the guns are and stuff. I get it, but it took 5 years to 
get a speaker, which is one of the Coast Guard's core 
competencies, is to keep people out of certain areas where you 
yell at people.
    It is not a Navy core competency, but it took 5 years. I 
was so surprised that the Coast Guard did not have these LRADs 
on the ship. It blew my mind, and that the Navy did. It should 
have been vice versa.
    But I just hope that you look at not necessarily Joint 
Program Offices, but look at what the Navy is doing and not 
recreating the wheel, not doing RDT&E because you don't need 
to. They have already done it.
    And if we can change the rules or change the law so that 
you can piggyback on the Navy more so that you don't have to go 
through steps A through D and you can just jump to E, that 
would be great, and I think that is what we are kind of pushing 
for here.
    So, Admiral, thank you very much. Thanks for being here, 
and thank you for your testimony and service.
    Admiral  Haycock. It is an honor to be here.
    Mr.  Hunter. And we are going to move to the second panel. 
While everybody is moving around, I will introduce. Actually we 
can wait. Take your time.
    All right. Lady and gentlemen, welcome. We will now move to 
the second panel.
    We will hear from Dr. Eric Terrill, director of the Coastal 
Observing Research and Development Center at the Scripps 
Institution of Oceanography. That is a great place. I go there 
all the time, to surf, back in the old days.
    Mr. Michael Jones, president of The Maritime Alliance.
    Mr. Chris Coyle, member of the International Ocean Science 
and Technology Industry Association.
    Mr. Thomas Chance, chief executive officer of ASV Global.
    Dr. Tuba Ozkan-Haller, professor and associate dean at the 
College of Earth, Ocean, and Atmospheric Sciences at Oregon 
State University.
    And Rear Admiral Jonathan White, president and chief 
executive officer of the Consortium for Ocean Leadership.
    Dr. Terrill, we realize, too, that you have to leave at 
11:45. So just feel free to hop up and roll when you have got 
to go. We now recognize you to give your statement.

    TESTIMONY OF ERIC J. TERRILL, PH.D., DIRECTOR, COASTAL 
OBSERVING RESEARCH AND DEVELOPMENT CENTER, SCRIPPS INSTITUTION 
  OF OCEANOGRAPHY; MICHAEL B. JONES, PRESIDENT, THE MARITIME 
   ALLIANCE; THOMAS S. CHANCE, CHIEF EXECUTIVE OFFICER, ASV 
GLOBAL, LLC; CHRISTOPHER J. COYLE, MEMBER, INTERNATIONAL OCEAN 
  SCIENCE AND TECHNOLOGY INDUSTRY ASSOCIATION; H. TUBA OZKAN-
HALLER, PH.D., PROFESSOR AND ASSOCIATE DEAN, COLLEGE OF EARTH, 
 OCEAN, AND ATMOSPHERIC SCIENCES, OREGON STATE UNIVERSITY; AND 
 REAR ADMIRAL JONATHAN WHITE, U.S. NAVY (RET.), PRESIDENT AND 
    CHIEF EXECUTIVE OFFICER, CONSORTIUM FOR OCEAN LEADERSHIP

    Dr. Terrill. Chairman Hunter, Ranking Member Garamendi, and 
members of the subcommittee, thank you for the opportunity to 
be here today and discuss new maritime technologies.
    As I was introduced, my name is Eric Terrill, and I am the 
director of the Coastal Observing R&D Center at Scripps in San 
Diego and have 25 years' experience as an oceanographer, 
leading basic and applied research programs around the globe.
    In the interest of brevity, I shall forgo Scripps' very 
long history of supporting national defense objectives, but 
that legacy is captured in my written testimony.
    So my testimony, I will address three points: the merits of 
the Coast Guard developing partnerships with organizations and 
agencies that specialize in conducting maritime RDT&E; using 
existing maritime technologies tailored to the Coast Guard 
mission; and exploitation of data and products from existing 
networks to enhance Coast Guard mission readiness.
    In 2002, at Joint Harbor Operations Center, the one that 
was referred to in your introductory remarks, Chairman, was 
developed after the events of 9/11, and in the center, 
dispatchers worked side by side across a whole range of 
agencies, including National Guard, Customs and Border 
Protection, ICE [U.S. Immigration and Customs Enforcement], and 
various other personnel.
    And the JHOC is an analog for the type of interagency 
partnering that will be required if there is an expectation to 
efficiently field modern blue technologies with the Coast 
Guard.
    In the history of Scripps, my organization has maintained a 
strong emphasis on the development, testing and evaluation of 
maritime platforms and sensors for the purposes of persistent 
ocean sampling, and in many cases, these capabilities are 
directly relevant to the men and women who provide maritime 
security to our Nation.
    UUVs, or unmanned underwater vehicles, continue to develop 
as a frontier technology for subsurface exploration and sensing 
advances. These vehicles, with appropriate sensors, payloads 
can assist the Coast Guard in detecting and tracking oil spills 
of unknown origin; finding sunken wrecks and assessing their 
potential to leak bunker oil; mapping bathymetry hazards in 
marine habitats; and detecting IUU, or illegal fishing 
activities.
    Unmanned surface vessels are maturing, as well, as another 
maritime platform for consideration to serve the maritime 
security mission, and contrary to underwater vehicles, their 
ever-present surface expression provides and always-on 
communication, ISR, and navigation capabilities with GPS.
    In my experience with unmanned surface craft, you referred 
to your trip up to Silicon Valley to see debris 6 years ago. 
That debris has now matured to a commercially available 
platform through a company called Liquid Robotics. We have had 
a wide range of successes in a range of operating environments 
with that platform.
    And applicability to the Coast Guard includes ship traffic 
monitoring, fisheries protection, ocean sea state 
characterization, and monitoring of currents in support of oil 
spill trajectory analysis; communication gateways between 
surface craft and ship routing.
    Unmanned aerial systems are another tool that could be 
transitioned. A lot of discussion earlier this morning on that. 
An emergent technology of interest in that regime is the hybrid 
UAS that allows for vertical and takeoff from a fixed location, 
but transit with a fixed wing similar to an Osprey. So now you 
have not the load-out that you might have with a catapult type 
system or the ScanEagle.
    These capabilities are only now in development for use from 
ships operating on the high seas.
    Scripps recommends partnering within the Department of 
Defense. They are already making investments in developing 
maritime surveillance tech systems. Office of Naval Research is 
an example of an Echelon 1 command which invests in RDT&E to 
routinely conduct small scale demonstrations for developing and 
testing new concepts of operations and technologies and 
leverages the expertise and testing of their program managers 
in operating efficient RDT&E programs.
    Science and technology in a spiral development with an 
emphasis on at-sea testing allows the capability to 
incrementally evolve and improve at lower risk. Successful 
demonstrations can be transitioned to support operations, while 
unsuccessful demonstrations provide valuable lessons learned 
before you field it to a whole fleet.
    Along the U.S. coast, there is a wide network of 168 high-
frequency radars sponsored by NOAA [National Oceanic and 
Atmospheric Administration]. Through MOUs [memorandums of 
understanding] they provide this information to the Coast Guard 
for missions, such as oil spill and response and search and 
rescue and operations.
    This is an operational network. However, the opportunity 
remains elusive to continue to exploit that system because it 
is only funded at the 50-percent level at which it was 
originally earmarked or identified in a national plan to get 
that radar network in operation.
    So in closing, I would like to thank the committee for the 
opportunity to testify on the role of marine technologies and 
provide suggestions for U.S. to leverage ongoing investments 
and use new maritime technologies to improve maritime mission 
performance and efficiencies.
    Thank you.
    Mr.  Hunter. Thank you, Mr. Terrill.
    Mr. Jones, great to see you out here. You are recognized.
    Mr.  Jones. Chairman Hunter, Ranking Member Garamendi, 
members of the subcommittee, thank you for the opportunity.
    I am president of The Maritime Alliance. We are a nonprofit 
industry association founded in 2007 and based in San Diego. We 
are a leading voice for blue tech nationally and 
internationally.
    We are a multiyear strategic partner with the U.S. 
Department of Commerce and received a grant to organize the 
first ever U.S. Maritime Technology Export Initiative.
    In 2017, we helped form the BlueTech Cluster Alliance, the 
first international coalition of blue tech clusters.
    The Blue economy is enormous and growing. It is blue tech 
that allows us to understand ocean problems, and blue tech is 
critical to develop solutions to these problems. And blue tech 
companies are providing the innovative tools and services that 
permit emerging ocean industries to develop.
    The Maritime Alliance has over 90 members from across the 
U.S. and internationally. In conjunction with our international 
cluster partners, we have access to thousands of companies.
    The following are some maritime issues that The Maritime 
Alliance blue tech member companies are addressing that may be 
of interest to the Coast Guard.
    First, on autonomy software and autonomous vessels. 
Multiple TMA [The Maritime Alliance] member companies are 
involved in autonomy in the air, on, and under the water. As 
examples, Boston-based Sea Machines Robotics recently announced 
a contract with Maersk, the world's largest shipping company, 
to try out the world's first artificial intelligence powered 
situational awareness system aboard a containership.
    And San Diego-based Planck Aerosystems' drone intelligence 
improves real-time situational awareness via autonomous takeoff 
and landing from moving vessels at sea.
    Second, under big data, enormous amounts of ocean data are 
being collected. Redlands, California-based Esri, the world's 
leading GIS software mapping company, is helping unlock the 
potential of data to improve operational and business results.
    And San Diego-based XST provides big data consulting 
services, including high-definition, hyper-local weather 
prediction.
    Third, in cybersecurity, we know good cyber hygiene, 
training, and innovative technologies and services are needed 
to protect the logistics chain. Philadelphia-based Gnostech 
helped mitigate cybersecurity risk from sea to shore.
    Fourth, in ocean observation, the Integrated Ocean 
Observing System, IOOS, is the national-regional partnership 
focused on ocean observation and enjoys wide industry support.
    TMA was coauthor of ``The Ocean Enterprise,'' the first 
ever national scale assessment of the value of ocean 
observation published in February 2016 that identified over 400 
U.S. companies in 36 States, representing over $7 billion in 
revenue.
    Fifth, in pollution mitigation, San Diego-based Earthwise 
Sorbents is pioneering high-performance algae-based, not 
petroleum but algae-based sorbents to clean up oil and chemical 
spills on land and in water.
    Seattle-based Marine Construction Technologies has patented 
an innovative pile design that reduces noise pollution from 
impact pile driving by 80 to 90 percent.
    Sixth, port and maritime efficiency and security. Durham, 
North Carolina-based PortCall and San Ramon, California-based 
OceanManager have developed maritime software to help port and 
shipowners to be more efficient.
    Richmond, California-based WAM-V produces a watercraft 
using patented suspension technology to radically improve 
seagoing capabilities.
    And seventh, in predictive analytics, Seattle-based 
ioCurrents gathers real-time data on important assets on 
commercial vessels into a central database onboard to permit 
automated analysis within the cloud's availability and backup. 
This allows operators to predict and preemptively resolve 
likely equipment failures.
    So following are some ideas for the subcommittee to 
consider to enhance the Coast Guard's ability to identify, 
test, and incorporate blue tech:
    Increase travel funding to attend blue tech oriented 
events;
    Increase funding to evaluate blue tech products and 
services;
    Enhance the on-ramp to make it easier to identify 
innovative technology and services;
    Enhance the Innovation Council with regional meetings 
alongside blue tech events;
    Make regional tech scouting part of someone's role;
    Establish a secondary innovation center on the U.S. west 
coast;
    Promote blue tech collaboration with other U.S. Government 
agencies in the marine domain;
    Promote blue tech collaboration and transfer to and from 
other countries' forces.
    Thanks for the opportunity to testify today. We are 
grateful to the members of the subcommittee for focusing on 
blue tech. The Maritime Alliance stands ready to be a resource 
to this committee.
    I request that the entirety of my written testimony be 
entered into the record of this hearing.
    Thank you.
    Mr.  Hunter. Thank you very much.
    I just want to sing Michael's praises. No one has done what 
he has done yet, creating a blue tech consortium that someone 
can go to as a single point. They have this for everybody else, 
but no one thought to do it on the water, and it is pretty 
amazing, a lot of money, and it gives the Coast Guard and the 
Navy and other organizations a single point to go to say, 
``Hey, what is out there?''
    But thank you for all that you are doing.
    Mr. Chance, you are recognized for your statement.
    Mr.  Chance. Thank you very much.
    To help us stay on schedule, I will summarize my written 
testimony.
    Chairman Hunter, Ranking Member Garamendi, and 
distinguished members of the committee, I am honored to testify 
today regarding the use of new maritime technologies to improve 
the efficiency and mission performance of the U.S. Coast Guard.
    As CEO of ASV Global, the world's largest and most 
experienced unmanned surface vehicle company, I can speak as to 
where unmanned vessel technology is today and where it is 
going.
    However, before I do so, let me commend the work of the 
U.S. Coast Guard and this subcommittee for its long history of 
outstanding service. The Coast Guard is saving lives, fighting 
crime, and defending our country on a daily basis, and the 
citizens of this country should never take that for granted.
    Unmanned surface vehicles, or USVs, are simply unmanned 
boats. Our company alone has delivered more than 100 USVs to 
military and commercial users across the globe. These USVs have 
ranged up to 40 feet in length, up to 1,000 horsepower, and 
endurance in excess of 30 days. However, we currently have 
several inquiries, both commercial and military, for unmanned 
vessels in the 80-foot to 200-foot range with endurance up to 3 
months.
    Leidos Corporation recently built a 132-foot USV, while the 
Norwegians and the Chinese are starting to build USVs up to 260 
feet in length.
    In addition to USVs that cannot accommodate personnel, 
industry has built dozens of optionally unmanned vessels. 
Optionally unmanned allows the asset to be deployed with a full 
crew onboard, a reduced crew, or no crew at all.
    Finally, ASV Global has upgraded several existing vessels 
to optionally unmanned. By upgrading to optionally unmanned, 
existing assets can experience the progression to unmanned 
without losing existing capabilities.
    Just as driverless cars have a steering wheel and a 
driver's seat, the current pragmatic approach to driverless 
vessels is to allow them to drive autonomously while remotely 
supervising their operation over a radio or satellite telemetry 
link.
    At the same time, COLREG [International Regulations for 
Preventing Collisions at Sea] compliant collision avoidance 
software continues to mature so that remote supervision can 
eventually be phased out.
    Economics is the driving force towards the use of unmanned 
vessels. When you go from manned to unmanned ships, you don't 
need a galley and a mess. You don't need bunk rooms, hallways, 
heads, washing machines, dishwashers, freezer, stairways, 
workshops, a meeting room, or a large bridge. In a sense, an 
unmanned vessel is a hull with diesel tanks, engines, and a 
rack of computers and sensors.
    While I don't want to trivialize what is necessary for 
unmanned vessel operations, the capital cost of an unmanned 
vessel can be far less than that of its manned equivalent.
    In addition to reduced capital costs, unmanned vessels can 
offer reduced daily operating costs as vessel personnel are 
condensed to those remotely supervising operations and those 
maintaining unmanned vessels while at port.
    Finally, CONOPS, such as offshore stationing, can 
substantially reduce operating costs.
    USVs can offer persistent maritime domain awareness, where 
unmanned or optionally unmanned vessels, large or small, can 
remain on station for weeks at a time, while providing 
intelligence, surveillance, and reconnaissance, as well as 
interception and to a degree, interdiction.
    Coast Guard personnel at land-based command centers can 
dispatch predeployed unmanned vessels to intercept and assess. 
Nonlethal weapons, such as prop-net entanglement systems, can 
be used by USVs to stop suspect vessels until manned Coast 
Guard vessels can arrive and apprehend.
    Offshore stationed USVs can be used for drug interdiction, 
illegal fishing interdiction, border protection, collision 
investigations, search and rescue, pollution incident 
investigations, and investigation of the numerous reported 
suspect vessels in distress.
    Coast Guard vessels of all sizes are candidates for 
upgrades with collision avoidance bridge aids to mitigate 
maritime collisions. Future ship build programs should 
certainly consider fully unmanned, partially unmanned, and 
optionally unmanned ships.
    These are just a few of the many applications of unmanned 
surface vessel technology that can be considered by the U.S. 
Coast Guard. While additional appropriations are necessary for 
the Coast Guard to capitalize on unmanned technology, the 
economic and strategic advantages are likely to be 
overwhelmingly positive as they are with other unmanned 
technologies in the military and commercial sectors.
    I would be happy to answer any questions that you may have.
    Mr.  Hunter. Thank you, Mr. Chance.
    Mr. Coyle, you are recognized for your statement.
    Mr.  Coyle. Good morning. My name is Christopher Coyle. I 
want to thank the chairman, ranking member, and distinguished 
committee for giving me the opportunity to speak to you today 
about blue technologies, an exciting field.
    Today I am representing IOSTIA, the International Ocean 
Science and Technology Industry Association, which represents 
businesses and organizations that provide technology and 
services for sectors that sustainably and commercially utilize 
the oceans.
    As an example of this hearing, IOSTIA provides a unified 
public policy voice for those in the industry space.
    During the day I work for Exocetus Autonomous Systems, a 
company that designs, manufactures, and services deep-sea 
robots, autonomous underwater vehicles, or AUVs, in business 
development and strategic partnerships.
    I also lead the company's data and analytic initiative for 
the company's XPRIZE entry. In fact, Exocetus was named a 
semifinalist in the Shell Ocean Discovery XPRIZE for mapping 
the ocean floor. We were only one of 19 teams selected from 
around the world out of 1,400 entrants. So we are extremely 
proud of this moon-shot award.
    In addition, Exocetus is a semifinalist in NOAA's prize for 
detecting chemical and biological signals underwater.
    Our oceans cover 70 percent of the planet. Yet only 10 
percent of the ocean floor has been mapped. We know more about 
the surface of the moon than we know about what lies below the 
surface of our waters.
    How is that possible?
    Elon Musk, Jeff Bezos and Richard Branson have spent 
billions of dollars of their own wealth and raised billions 
more from Silicon Valley investors. It is sexy and exciting. 
Yet, they have reenergized the planet's interest in outer 
space, intergalactic travel, and potential colonization of 
other planets.
    But it is entirely misguided. The final frontier to be 
discovered is our oceans. The next space race is our oceans. 
Our planet depends on the access to healthy and plentiful 
oceans. Blue tech should be the focus, not space.
    As population growth climbs, as migration to concentrated 
coastal areas continues, as farmlands around the world shrink, 
as more and more people become dependent on fish protein, as 
seas play a more herculean role in carbon capture, oceans need 
to be today's focus for emerging technology, investments, and 
U.S. Government attention.
    And so blue technology is the critical technology to 
encourage as our children grow into adults and take on 
leadership roles.
    This past week, I came across an article entitled ``Can the 
U.S. Navy Brave the Waves of Autonomous Warfare?'' I will hand 
the article to your staff in case you would like to include it 
in the record today.
    The article's thesis is that AUVs offer greater efficiency, 
mission range, and lower cost of capital than other more 
traditional naval means. AUVs will prove to be cheaper to 
operate, put fewer seamen in harm's way, and therefore, assume 
greater levels of risk.
    AUVs are more expendable and can augment a fleet to do 
search and reconnaissance. Last July, DARPA contracted BAE 
Systems to build small AUVs to detect enemy subs. Today, AUVs 
are working on sea sensing and mine countermeasure tasks.
    By 2025, the Navy's AUVs will support undersea warfare by 
going into denied waters that are either too deep or too 
shallow for manned platforms.
    AUVs will continue to provide greater benefit to the U.S. 
Coast Guard for port and waterway security, maintaining aids to 
navigation, marine environmental protection, oil spill 
protection and response, marine pollution laws, fisheries, 
ocean shipping lanes, and in support of the Coast Guard 
Authorization Act of 2017.
    My company, Exocetus, is a quintessential example of a 
sound U.S. Government collaboration. Exocetus was started with 
a $15 million Federal grant to develop its buoyance engine 
resulting in three patents on the engine design and one on the 
retrieval system. Today, we are proud to say the Navy presently 
is using our AUVs.
    To me, the most exciting thing about AUVs are the sensors 
and the integration of all the emerging technologies, such as 
cloud computing, artificial intelligence, machine learning, and 
blockchain to process the big data and analytics that will 
provide essential information and intelligence for our national 
security, coastal erosion, port security, shipping lanes, 
laying fiber optic cables for communication, internet and media 
companies, and meteorological disturbances, to name just a few.
    The future for blue technology is bright. The million-
dollar question is: Are we going to seize this amazing 
opportunity and support and invest in brandnew industries that 
will create high-paying jobs of the future, or are we going to 
continue to kick the can down the street? If we don't, the 
Chinese and the Russians will.
    I am convinced that the potential for the blue economy and 
blue tech will be the next biggest revolution that we have seen 
in decades. The best way to predict the future is to create it.
    Thank you and I look forward to answering any of your 
questions.
    Mr.  Hunter. Thank you, Mr. Coyle.
    Dr. Ozkan-Haller, you are recognized for your statement.
    Dr.  Ozkan-Haller. Thank you, Chairman Hunter, Ranking 
Member Garamendi, and members of the subcommittee, for the 
opportunity to testify today on blue technologies developed 
within academic settings and how they can support the Coast 
Guard's mission.
    I am a professor at Oregon State University, and I conduct 
research on the prediction and forecasting of ocean conditions. 
My work also explores ways to present forecast results to make 
them most usable for various stakeholders, including bar 
pilots, the fishing community, the National Weather Service, 
and the Coast Guard.
    My testimony today will focus on the potential for wave 
forecasting systems and other forecasting innovations to help 
advance operational capabilities of the Coast Guard, including 
safe navigation and identification of illegal activities at 
sea.
    The development and refinement of these forecasting tools 
heavily relies on observations of the ocean both from long-term 
observing platforms, as well as from innovative autonomous 
platforms that you have already heard about this morning.
    Today I will stress that strategic investments are required 
in technology development and in continuing education 
activities to ensure the effective utilization of these 
technologies to meet the mission objectives of the Coast Guard.
    First, ocean wave and current forecasts are analytical 
tools that can help stakeholders understand and predict ocean 
conditions. Recent advances in predictive models allow for 
detailed and high-resolution forecasts of ocean conditions.
    Forecasts in the open ocean can be used during search and 
rescue operations to narrow down the geographical area of 
interest. Forecasts near navigational inlets are a critical 
capability at many challenging inlets where transit through the 
river mouth and over the river bar can be treacherous.
    The mouth of the Columbia River, often colloquially 
referred to as ``the graveyard of the Pacific,'' is one such 
example. Twenty-four billion dollars of cargo moves through the 
Columbia River system annually. The Coast Guard makes decisions 
about bar closures that halt vessel traffic, and the cost of a 
bar closure to the local economy is significant.
    One of the groups that plays a role in bar closure 
decisions is the Columbia River Bar Pilots. They require 
accurate forecasts 10 hours in advance because of the time 
required by a tanker released from the upriver port to reach 
the river mouth.
    Once there, most of these tankers are too big to turn 
around, so the hazard of making a wrong decision can mean a 
disaster on the bar.
    For the last 5 years, the Columbia River Bar Pilots have 
been utilizing our wave forecasts to inform their 
decisionmaking on navigational planning. We have worked 
extensively and iteratively with the bar pilots to create an 
interface that meets their needs and maximizes their ability to 
use the results.
    They now use forecasts for the computation of under-keel 
clearance values, as well as for recommendations regarding the 
closure of the bar, along with, perhaps more critically, the 
timing of the reopening of the bar.
    Additionally, predictive forecasting capabilities also now 
show promise for identifying illegal activities at sea. 
Illegal, unreported, and unregulated activities at sea can be 
challenging to assess and predict. The key challenge is that 
vessels committing IUU activities turn off their GPS 
transponders and, therefore, go dark.
    New solutions for predicting IUU activity using 
mathematical models based on conflict systems theories are 
currently emerging, and these methods exploit the fact that 
vessel traffic responds to the presence and absence of other 
vessels in the area whether they are visible to us or dark. So 
observing the behavior of the visible fleet carries clues about 
the movement of the dark fleet.
    While this research is still in very early stages, further 
development of these methods could aid in more efficient and 
effective patrol strategies.
    Finally, there is rapid advancement in research and 
technology innovation, but strategic investment in technology 
development by the user, in this case the Coast Guard, is 
critical to assure that any technology of interest is designed 
to meet their specific capability objectives.
    Our experience with wave forecasting products suggests that 
the needs of the bar pilots are quite different from the needs 
of the tuna fishing industry, for instance. Hence, close 
engagement is needed during the development phase of the 
products, and coordinated education is essential to assure the 
effective utilization of blue technologies by Coast Guard 
personnel.
    In closing, research and innovation in the field of ocean 
wave and current forecasting is proving to be increasingly 
significant in its potential to be translated into technology 
and information systems for the Coast Guard.
    I thank the subcommittee for your efforts to consider the 
role of technology innovation and applications for efficiently 
and effectively advancing critical Coast Guard capabilities, 
and I would be pleased to answer any questions.
    Mr.  Hunter. Thank you, Doctor, for your testimony.
    Admiral White, you are recognized for your statement.
    Admiral White. Thank you, Chairman Hunter and Ranking 
Member Garamendi and honored members of the subcommittee.
    During my 32-year career in the Navy, culminating in my 
assignment as oceanographer and navigator in the Navy, I worked 
with the Coast Guard at sea and ashore. Thus, it is with great 
respect and appreciation for their service that I am before you 
today to discuss blue tech on behalf of the Consortium for 
Ocean Leadership, which represents the Nation's leading ocean 
science, education, and technology institutions, industries, 
and others with the mission to shape the future of ocean 
science, and many of those institutions are represented on this 
panel today.
    There are three important ideas to take away from my 
testimony.
    One is that ocean knowledge enables the U.S. Coast Guard to 
achieve its missions through enhanced maritime domain 
awareness.
    Two, that blue tech is vital to understanding the ocean.
    Three is that blue tech innovation relies on ocean science, 
technology, engineering, and math education or ``ocean STEM,'' 
as I call it.
    This flow from mission success, from ocean knowledge, from 
blue tech, from ocean STEM education is the best way to 
understand how marine technologies not only improve 
efficiencies and performance, but are the very foundation that 
the Coast Guard relies on to meet its mandated missions now and 
in the future.
    Now I am going to dive into my first two themes on ocean 
knowledge and blue tech as they enhance maritime domain 
awareness.
    The late Admiral James D. Watkins, former Chief, Naval 
Operations, used to declare that oceanography won the Cold War, 
meaning that our superior ocean knowledge provided us with 
operational and strategic advantage over the Soviet Union.
    It is paramount that the Coast Guard maintains its 
strategic advantage in the maritime domain against today's 
threats to our security and safety. Ocean research and blue 
tech provide the critical base to ensure this strategic 
advantage continues.
    We must be able to exploit our superior knowledge of the 
ocean environment to ensure home field advantage at both the 
home and away games. We can only do that if we have unsurpassed 
ocean knowledge, which brings me to the importance of blue 
tech.
    So how do we monitor, explore, map, and better understand 
the ocean environment that makes up 71 percent of our planet 
and surrounds our maritime Nation? It is ocean science and 
technology, and blue tech has provided our Nation with the 
knowledge advantage against myriad marine threats.
    The Coast Guard, like all of our maritime forces, must 
optimize technological development to best understand the 
environment to meet its mission objectives while minimizing 
risk to personnel.
    For example, the autonomous ocean vehicles and sensors that 
we have talked about already today with ever-increasing 
endurance and proliferation enhance our ocean knowledge and 
understanding, but can also serve a dual use of surveillance 
and monitoring and of the activity on, under, and above the 
ocean surface.
    With collaborative partnerships among Federal agencies, 
ocean science and technology institutions and industry, these 
are essential to actualizing the potential of blue tech like 
this to fulfill the Coast Guard's missions.
    In my written testimony, I go into more detail on what it 
looks like in the real world with examples of how understanding 
the ocean and using blue tech will advance our Nation, whether 
it is helping the Coast Guard to catch the vessels fishing 
around the world illegally in our own waters, or allowing us to 
safely and sustainably maximize new economic opportunities in 
the changing Arctic, or continuing to improve our preparations 
in responses to hurricanes and storms that threatened our 
safety and security.
    I would be happy to expand more on those examples during 
questions.
    So it is clear to me without continuing to grow our ocean 
STEM education base, the Coast Guard will be unable to maximize 
technology developments and meet their missions. Other nations 
are advancing rapidly with the hope of overtaking the U.S. in 
the global scientific and technical fields as a super power. 
Increasing our ocean STEM education and training will ensure 
our sailors and civilians have the requisite skills to embrace 
new and emerging blue tech ahead of competing entities and 
threats.
    I encourage this committee to join others in supporting 
Federal investments in the prioritization of STEM education to 
enable programs like those at the Coast Guard Academy and 
develop the next generation of maritime innovators and 
servicemembers.
    It is really rather simple. Greater technology requires 
greater technicians, and that requires enhanced ocean STEM 
education.
    To respond to our ocean's physical, chemical, and 
biological changes while maintaining security around our 
geopolitical maritime boundaries and ensuring the safety and 
prosperity of those within them, the Coast Guard must know the 
ocean.
    Chairman Hunter, Ranking Member Garamendi, and Members, the 
ocean science and technology community appreciates the interest 
that this subcommittee has in blue tech, and I want to 
reiterate those three points:
    Ocean knowledge enables the Coast Guard to achieve its 
missions through enhanced maritime domain awareness;
    Blue tech is vital to understanding the ocean;
    And blue tech innovation relies on ocean STEM education.
    I thank you for the time and the opportunity to be before 
you, and I am ready to answer questions.
    Mr.  Hunter. Admiral, thank you.
    I am going to take us back to the late 1990s when the Air 
Force was looking at these unmanned aerial vehicles. At that 
time it was Predators. So picture a bunch of Air Force 
officers, mostly generals and colonels, all pilots, the head of 
the Air Force, and we come up and we say, ``Hey, we would like 
you guys to look at unmanned aerial vehicles.''
    And they are like, ``What do you mean? Ones that we are not 
in flying?''
    We say, ``Yeah, ones that you can fly from the ground that 
a 19-year-old can fly with an Xbox controller. How about 
those?''
    And the Air Force said, ``Go pound sand,'' or, ``go pound 
clouds.'' I don't know what the Air Force says, but the Air 
Force said no because a bunch of pilots in the Air Force did 
not want an unmanned aerial vehicle. It was a culture shift for 
them.
    This Congress, and it was back in the day, the late 1990s, 
the appropriators in the Armed Services Committee said, ``Air 
Force, you will have Predators. Here you go. Here are some 
Predators. Learn how to do it.''
    The Air Force had to accept that, and it was a massive 
culture change for them because they had a lot of excuses, 
airplanes hitting each other; not a real pilot flying them; a 
lot of different things.
    We now see in warfare what a Predator does or a ScanEagle 
or a Pioneer or any of these different things that we use to 
support our men and women around the world very inexpensively 
and effectively.
    It seems like that is where the Coast Guard is at now, 
except the analogy would be different. It would be if the 
commercial world had been using Predators for 5 years and the 
Air Force finally jumped onboard. That is where the Coast Guard 
is now.
    So they are behind the commercial world. They are behind 
the Navy. They basically don't exist in this world at all, 
except for looking at different programs and testing and 
evaluating them. They are not playing yet, while this stuff is 
being used commercially.
    So it has gone backwards, and I guess our job in the 
committee and your job letting us know what is available is to 
make them adapt and change so that they can be more effective.
    So, Admiral, I guess my first question to you is you have 
things. You have RPVs, remotely piloted vehicles, unmanned 
underwater vehicles, autonomous vehicles. You have the liquid 
robotic surfboard which can be maneuvered and is autonomous, 
too. It can be programmed. You have an unmanned surface vehicle 
right now in San Diego in Point Loma that the Navy is using. It 
was going to be in the big RIMPAC [Rim of the Pacific Exercise] 
coming up. They are going to actually use it, one of the first 
autonomous vehicles there.
    I guess I am throwing this all at you, Admiral, to start 
off with because you were in the Navy while they have gone 
through these kinds of changes in culture of looking at these 
things as well. They are much more embracing of this, it seems, 
than the Coast Guard is, and I guess the question is: why is 
that?
    And what can we do in this committee to make the Coast 
Guard embrace what the Navy has and kind of get out of the 
culture of ``wow, if we cannot drive the boat, we don't want 
anybody to drive the boat''?
    And I would end with this. At least for cuing, meaning 
foreseeing the bad guys driving, the Coast Guard could spend 
$20 million tomorrow and have a 50-mile line coming out from 
San Diego with surfboards that could recognize any ship going 
over 40 miles an hour. That exists very easily right now that 
can tip and cue them then to go get it.
    The Coast Guard's reason is we cannot catch these guys. We 
don't see half of them. When we see them, we can usually hit 
them. It is hard to see these panga boats coming up the coast 
of California.
    You can create a tripwire really easily. It is not in their 
concept of operations. They talk about it, but the technology 
has existed now for years, and it is out there. They are not 
doing it.
    So I guess the question to you is: Coming after 30 years in 
the Navy, being their oceanographer, being the guy watching the 
culture in the Navy, where is the Coast Guard in terms of 
culture, and is that what needs to be changed, looking at Mr. 
Garamendi's questions earlier in the last panel?
    Is that what needs to be changed in the Coast Guard or is 
it really that they need to change laws and regulations to do 
these little things, or is it a personality issue?
    Admiral White. I certainly won't perceive to have the 
knowledge that our predecessor on the panel does of the Coast 
Guard's acquisition and research process, but I will tell you 
that the Navy's is the strongest pretty much in the world.
    Over time we have showed the innovation, whether it is 
submarines, it is landing airplanes on aircraft carriers, and 
many things that you have talked about. That ocean research 
enterprise that the Navy has put forward has really adopted 
transformational changes which have impacted all of these 
services.
    The Navy has always been committed to that. They spend a 
lot of money. They have a research, development and transition 
enterprise that, again, is like none other.
    The Coast Guard and Navy work very closely, but in many 
ways, my own opinion is that the Coast Guard is always on the 
front lines. They are always right there. There are things 
going on on our coast, and they are stretched because of the 
operational type of responses and the operational readiness and 
preparedness, ``semper paratus,'' that they always have to 
actually be there.
    I believe there are opportunities, as I mentioned in my 
testimony, across agency working together in partnerships 
through things like the National Ocean Partnership Program Act, 
which was entered into operations in the 1997 National Defense 
Authorization Act.
    Partnerships between the Department of Homeland Security, 
Transportation, DoD, NOAA, and others can advance the research 
and technology and transition if they are used appropriately, 
and I believe that is the type of avenue that you, sir, and 
your Members and partners in Congress can go forward and try to 
advance the research, development, and acquisition process of 
the Coast Guard.
    Mr.  Hunter. What would you say was the biggest impediment 
for the Navy when it came to do an autonomous ship, for 
instance?
    Because I have been in a room where you have a bunch of 
captains going, ``We are not going to have a driverless ship. 
Every Navy ship will be captained.'' I mean, that was a culture 
issue.
    Admiral White. And when Secretary Mabus made the 
announcement 4 years ago at the Sea-Air-Space Exposition that 
the F-35 would be the last generation of manned fighter 
aircraft, naval aviators' jaws dropped on the table, as you can 
imagine.
    So but what you have, I think, is a workforce based in STEM 
education over many decades who understands the importance of 
embracing new ideas and technology. I think that has been the 
U.S. Navy's strength. Especially now you see that more than 
ever.
    So I think embracing that culture and blending that culture 
with industry and the academic institutions, which the Navy 
also does through its Office of Naval Research and the 
laboratories that were actually talked about, that is how the 
Navy has managed to do that.
    But a lot of it is personality driven, and the U.S. Navy 
and the Coast Guard, I believe they have the right personality 
and the people in leadership to do that. It is just a matter of 
giving them the tools, the time, and the resources to do it 
right, sir.
    Mr.  Hunter. So to extrapolate then on what you said, you 
are saying the Coast Guard is so operational all the time, it 
is your opinion that they don't necessarily have time to look 
into these things and operationalize them or it takes longer?
    Admiral White. Yes, sir. I believe they are stretched. I 
don't think they have time or the resources, and I don't think 
we in the Federal Government have the partnerships across the 
agencies to be able to accelerate transitions of the great work 
that the other members on this panel are doing in industry and 
academics.
    Mr.  Hunter. But the catch-22 is that if the Coast Guard 
did some of these things, they would have more people to do 
other things and the ability to have some space there because 
of the leverage you get by employing autonomous anything in 
sensors.
    Admiral White. Yes, sir, but I always caution that we did 
learn a hard lesson in the Navy early on. Unmanned does not 
mean totally unmanned. It takes people to operate these 
systems, more and more technology, more and more knowledge, as 
I talked about it as well.
    So I do caution you to not think too much that we are going 
to free up a lot of people because there is plenty of mission 
for the Coast Guard, the Navy, and all of our forces out there, 
sir.
    Mr.  Hunter. Thank you, Admiral.
    Mr. Garamendi, you are recognized.
    Mr.  Garamendi. First I want to thank the panel, an 
extraordinary panel, and a wide variety of information, from 
basic research to applied, and then the actual business of 
building the various systems. It is extraordinary.
    And your testimony probably two or three flights across the 
country for the chairman and I to absorb all of the data that 
you have given me. So thank you so very much for that.
    I have got about 20 different questions, and about 5 
minutes in which to ask all of the questions. But really honing 
in on the culture of the Coast Guard here--but before I go to 
that, your testimony and, really, your work is based upon the 
application of science and research, much of which is funded 
through the various Federal organizations--National Science 
Foundation; for example, U.S. Navy, another example that was 
given here a moment ago. That is really beyond the scope of 
what we are talking about today.
    But it is the application of that science, and the 
development of the various techniques and technologies that 
come from it that we are focused on. And most particularly on 
the culture of the Coast Guard.
    I am sorry that the admiral left, but the reality is that 
there is within the Coast Guard two things operating, it seems 
to me. First the culture is not one of adapting quickly new 
techniques and technologies. And secondly, a lack of money to 
do so, if in fact that culture did exist.
    So my--really, my questions go to--from your points of view 
and the work that you do, how can we encourage the Coast Guard 
to more quickly adopt the systems that you have developed, the 
research that you may have available, and just that area. So 
how can we motivate change or otherwise encourage the Coast 
Guard to be a first adopter of a technology?
    Dr. Terrill, then right on down the line we can go at it.
    Dr.  Terrill. Sure.
    Mr.  Garamendi. Money.
    Dr.  Terrill. Well, I am not prepared to discuss 
procurement reform. But, as an observation, what I have seen in 
the Department of Defense, especially those parts of the 
Department of the Defense with seawater in their veins, is that 
the organized, vertically integrated programs that bring 
together the operational fleet all the way down to the R&D 
community, as part of these test beds or exercises that provide 
opportunities to demonstrate technologies to those in uniform, 
having them work together so that there is early adoption 
within those with uniforms so that they can be the apostles 
within their own organization to start--many times there is not 
an awareness of what the capabilities are. And having 
opportunities for the young lieutenants to actually be 
observant of the capabilities goes a long way, at least within 
the Navy.
    Mr.  Garamendi. Thank you.
    Mr. Jones?
    Mr.  Jones. So we're not really the National Science 
Foundation level. We are talking about companies that are 
selling technologies. And my experience is the Coast Guard is 
extraordinarily operationally oriented. And so, to try and get 
the attention of people in various areas is very difficult. 
They want it to go through New London.
    And I think one of the things that could be done--again, 
this is a cultural issue--is to encourage them to be looking 
for technologies, and to give them an opportunity to meet with 
industry.
    I had a former Coast Guard officer say to me that some 
years ago he felt that it was much easier for him to work with 
and meet with technology companies, and that they no longer 
have their tech forum which they used to have 5 years ago, 6 
years ago. They are no longer encouraged the same way--again, 
this is somebody telling me, so I am saying this thirdhand--
that he felt like there wasn't the same exchange of information 
and opportunity between industry and Coast Guard. And again, 
that is a cultural issue.
    So what I proposed was that each sector have people whose 
job it is--maybe it is 15 percent of the deputy commander's 
job--to go find technology, meet with industry, so they can 
funnel it up to New London, rather than having it all 
centralized, and potentially putting something on the west 
coast.
    So I think there are cultural things that--notwithstanding 
the fact it is extraordinary and operational every day, saving 
a life, you know, plus its military role--I think there are 
things that can and should be done.
    Mr.  Garamendi. Mr. Chance?
    Mr.  Chance. Sure, I would certainly second what you just 
said on the concept of having somebody concentrate on that, on 
meeting with industry and finding out what is available today.
    I would also say that this hearing is already having its 
effect. You know, I am looking at it aggressively, which I 
probably didn't as much as I should have in the past, and now 
we are lining up meetings with the Coast Guard RDT&E. And 
seeing the funding that the Coast Guard has got more recently 
to be able to push in this direction is certainly going to help 
hugely.
    Mr.  Garamendi. Thank you.
    Mr.  Coyle. I can't speak necessarily to the culture of the 
Coast Guard, but I can say that some of the challenges that the 
Coast Guard probably faces in implementing some of this new 
technology, you see that same hesitancy within the tech 
community and the investment community, and the potential of 
the blue economy.
    And so, trying to get IBMs and the Intels and the Oracles 
of the world to take those lessons learned in emerging 
technology and apply them to the ocean, the investment 
community, has been a herculean task. And I have only been 
doing this for a year. But that also allows for an enormous 
amount of opportunity to address those problems.
    Mr.  Garamendi. Thank you. Professor?
    Dr.  Ozkan-Haller. Thank you for this question. I have 
spent the last 25 years of my career developing software tools 
that I thought could be useful for many entities or industries. 
And every time I tried to take these tools to these entities or 
industries, I got resistance.
    I found that the path past that resistance in almost every 
single instance has been the idea that these tools should be 
co-developed, that the stakeholders should be involved in the 
development process through the development process.
    And also, the second piece has been educational 
partnerships, where folks are brought together and brought 
along. Perhaps that could be one of the ways in which we could 
encourage industry, academia, and the Coast Guard to work 
together to really understand what the key issues are, the 
barriers are that are preventing adoption, and work our way 
past those together.
    Mr.  Garamendi. Admiral?
    Admiral  White. I said a lot already. I will just say that 
the Coast Guard has been successful many years in innovating. 
Look at the work they have done at the Joint Interagency Task 
Force, in combating a lot of transnational criminal activities 
through intelligence, surveillance, and reconnaissance. Look at 
the work they have done against illegal fishing activities such 
as high seas drift nets, going back--more modern entities, as 
well.
    The Coast Guard can and does innovate. I still get back to 
I think in many ways it is a problem of resources, and that you 
have got to invest the resources upfront in the longer term--
rapid transition of the tech that is out there. But I know we 
all believe it is something that has to be done, so I think we 
need to look hard at the resources that are available to the 
Coast Guard to work in partnership with the Navy and the others 
to address these gaps, sir.
    Mr.  Garamendi. It would be a serious error for me to try 
to sum up all that you said, but it seems to me that there are 
a couple of things here.
    First of all, the culture of the Coast Guard: Take care of 
today's problem, operational words that are used. That, I 
think, goes to the incentives of the--if promotion included 
innovation, the innovation of an officer or of a--any 
individual of the 42,000, if their promotion also included 
their interest in innovation and bringing innovation online, so 
now you build a different cultural attitude.
    Secondly, the resource, which is a problem that the Coast 
Guard does have to deal with. I guess we have to deal with it. 
And we noted the 47-percent reduction in the research 
technology.
    And the third is interaction with other governmental 
agencies.
    They seem to be the three lessons that I would draw from 
this.
    Mr. Chairman, I will yield back.
    Mr.  Hunter. I thank the ranking member. I would like to 
differentiate, too, between super high-tech stuff that is in 
its infancy stages and is nascent--and a floating surfboard 
that can sense if there is oil in the water that has been 
around for 5 years or longer--longer than that, actually, I 
just saw it 5 or 6 years ago. That's not rocket science.
    And just in the same way, if you look at the southern 
border and you have a border fence now, you have basically an 
obstacle planted, what it has allowed the Border Patrol to do 
is spread their people out. Because there is a high-speed road 
and a fence. So if someone sees something, someone can get 
there in 1 minute on a quad. They can cover a mile in 30 
seconds and they are there.
    It is the same with the Coast Guard. I don't get the 
adapting of new things, when it is really just a surfboard that 
can cue you on a ship coming at 50 miles an hour, or a storm, 
or oil in the water. That is not rocket science, that is not 
crazy, and it is not even new any more. But when it takes the 
Coast Guard 5 years to put a loudspeaker on a small cutter, we 
are looking at decades before they will allow a surfboard with 
a sensor that costs $500,000.
    It is not where I am talking big money, either. I am 
talking small money, in terms of being efficient and effective.
    With that, Mr. Lowenthal, you are recognized for your 
questions.
    Dr.  Lowenthal. Thank you, Mr. Chair, and I want to thank 
the panelists for being here.
    I just wanted to mention first--and then I will have some 
questions--that I represent the port area of Long Beach, 
California, which is right adjacent to L.A. And so I have had 
the good pleasure of visiting with the port pilots the CDIP 
[Coastal Data Information Program] buoy network in the San 
Pedro Bay. And I know the value of the information that these 
devices both collect to our ports' pilots, and to researchers, 
oceanographic researchers, and to the entire maritime 
community. And so every year I lead a letter in the Congress 
supporting robust appropriation for the CDIP program.
    And also another program, which I am so impressed with also 
is one that I think Dr. Terrill at Scripps really led the 
effort, and that is the Under Keel Clearance Precision and 
Navigation Project. We have these huge tankers coming in and 
the ability to get in and out of our ports with very, very 
little clearance is so, so important. And it--really, the more 
we can do that, that reduces the inefficiency of offshore 
lightering, which is something we would like to eliminate, or 
do as--you know, as much as possible, because that just adds 
another step and another danger to the process.
    But I want to get back to the testimony of Dr. Ozkan-Haller 
and all the others about partnerships across Government 
agencies. You all talked about, I think, academia, the private 
sector, how we need these robust initiatives connected across 
these multiple entities and geographic--I want to know, what 
can the Congress do about that? What do you think, if you were 
going to advise us to take some very concrete steps to promote 
the partnerships that you are talking about? Could you give us 
some--just dig a little deeper and give us some examples of 
what you would like us to do?
    Dr.  Ozkan-Haller. Thank you very much for this excellent 
question.
    Partnerships between Federal agencies are really key, and 
they are key not just for the problem that you just mentioned, 
but for a variety of other problems that are related to the 
coastal zone, be it, for instance, coastal flooding due to 
storm events, or be it energy production from waves or tidal 
currents across the coastal zone.
    I think, you know, I have always felt that I have been very 
fortunate to work in a field where there are multiple Federal 
agencies interested in funding research and development. That 
is great, you can really expand your portfolio. But at the same 
time, sometimes certain tasks fall through the cracks, where no 
one agency feels--especially mission agencies--feel like it 
falls squarely within their purview to get something done.
    And sometimes some of the supplied work that we have been 
talking about, some of this transitioning the research into the 
hands of the folks who would actually use it, tends to fall 
through the cracks. This is one of the reasons why I wanted to 
stress how important it is to make the strategic investment in 
the technology development piece, in the actual transition, 
that last missing link to really make it easy for folks on the 
ground to utilize these.
    Admiral White mentioned the National Oceanographic 
Partnership Program. I am part of the Ocean Studies Board of 
the National Academies. And as part of that we talk about that 
program a lot as a potential conduit for getting agencies to 
work together. There has been some resistance in doing so, 
partially, I think, because of who is in the leadership 
position of the NOPP program at any given time.
    I have been told there are only two ways to get agencies to 
work together, and you all can tell me if this is correct or 
not. One is they are all buddies and friends and they get 
along, and so therefore they work together anyway. Or 
otherwise, they have to be told from above to work together. So 
maybe that is a place where this committee can come in.
    Thanks for the opportunity----
    Dr.  Lowenthal. So we are good at--we are the tellers.
    [Laughter.]
    Dr.  Lowenthal. Anybody else want to add something to that, 
in terms of how we create or, really, the role that the 
Congress should play in fostering and promoting partnerships, 
especially across Federal agencies?
    Yes, Admiral White.
    Admiral  White. Thank you, sir. I should mention that there 
has been a piece of legislation that has been entered into the 
process, I believe, by Congressman Panetta and Congressman 
Palazzo called Commercial Engagement Through Ocean Technology 
Act of 2018. It's CENOTE, by short. This is an act that is 
meant to basically make NOAA work more closely with Navy to 
test and develop autonomous vehicles and other blue tech that 
we have talked about today.
    The Coast Guard was not called out in that specific piece 
of legislation right now. But that type of legislation, I would 
encourage you to take a look at it. Is it something that you 
might want to look at with the Coast Guard? And--but those type 
of vehicles----
    Dr.  Lowenthal. That would be one of the vehicles that you 
are talking about that would foster that kind of relationship 
between NOAA and the other agencies?
    Admiral  White. Yes, sir. It would be a teller type of role 
that you would be playing.
    The same with NOPP [National Oceanographic Partnership 
Program]--by the way, which again is an act from the year of 
1996, enrolled in the 1997 NDAA [National Defense Authorization 
Act]. But, you know, could use probably a fresh look and some 
fresh telling, as well.
    Dr.  Lowenthal. Thank you.
    Yes, Mr. Jones?
    Mr.  Jones. I assume that you are involved, as you are 
naming new Commandants and people like that. And to the extent 
that you ask questions about innovation and technology, I think 
that is very telling, particularly for younger officers as they 
are coming up, that they see that that is an area of particular 
interest.
    And I would like to just note that the new Vice Commandant, 
Charlie Ray, did come down, and we put on an event for him. I 
think we had 10 companies present. He said he'd never done that 
before, and he was fabulous. Not only did he make a lot of 
companies really feel good that he wanted to be open, he 
brought people with him that followed up. And that kind of 
regional interface, the ability to talk to industry, to know 
that leadership is interested--again, thinking of these 
innovation councils going on a regional basis--I think could 
have a lot of benefit. Also, younger officers can get involved.
    So I think that things can be done without great cost that 
can really help change, but particularly, when you make that an 
issue at approval levels, the highest levels.
    Dr.  Lowenthal. Thank you.
    Thank you, Mr. Chair. I yield back.
    Mr.  Hunter. I thank the gentleman. I want to ask a really 
quick question before we go to Ms. Plaskett.
    Is there a kind of symposium that the Coast Guard has every 
year? The Army has a big AUSA [Association of the United States 
Army] convention, where every tactical killing thing known to 
mankind is there at the convention center here. The Marine 
Corps does the same thing. The Air Force has a Big Safari, the 
Navy has got a big symposium. Have any of you been invited to 
the Coast Guard technology symposiums on stuff that is out 
there?
    Mr.  Jones. So I am told the last one was 5 or 6 years ago.
    Mr.  Hunter. That is good. Nothing has happened since then?
    Mr.  Jones. I am sorry?
    Mr.  Hunter. Nothing has happened, technologically in 5 or 
6 years, so that is understandable.
    Mr.  Jones. I have a feeling it was probably cost-driven. 
But they had contracted with NDIA to do an innovation forum.
    And I think one other way to address that, rather than 
putting on their own forum, let's say in Washington, DC, a lot 
of the smaller companies don't necessarily know about it. And 
maybe the way to address it is to have officers go to tech 
forums in parts of the United States. So it reduces their cost, 
and they can go to where technologies already are being shown.
    Mr.  Hunter. Yes, Doctor?
    Dr.  Ozkan-Haller. I would also argue that certainly the 
local Coast Guard officers that are within my area, the mouth 
of the Columbia River and other treacherous inlets in the 
Pacific Northwest, do interact with companies, as well as with 
academic institutions, but at a much more local scale than what 
you are referring to. But those interactions, clearly, I think, 
are also useful.
    Mr.  Hunter. And there is a different dynamic, too. Because 
if you are in San Diego and you make a new thing for the 
Marines, you can go to Camp Pendleton, give a regiment or 
battalion that is deploying the gear, they can go to play with 
it and actually test it, do operational testing, and come back. 
The Coast Guard cannot do that. They don't have the rules and 
regulations set up.
    So even from my loudspeaker example, the LRAD, they had to 
go up all the way through, I think, at the admiral level or the 
captain level in the Coast Guard to be able to put that on a 
small cutter in San Diego in order to test it. It wasn't just a 
thing that the local commander there could say, ``Hey, guys, we 
are going to test a loudspeaker,'' pop it on one of the 
cutters. They had to get a person who specializes in that, who 
was already doing it in Florida, and then took that--it is just 
not as--it is not easy at all, actually, at the local level or 
at the small unit leader level.
    Ms. Plaskett, you are recognized.
    Ms.  Plaskett. [No response.]
    Mr.  Hunter. Ms. Plaskett, you are recognized.
    Ms.  Plaskett. Yes, thank you very much.
    Mr. Chance, I wanted to ask you a question. You all were at 
the first panel and the discussion that was had at that time. I 
had a discussion with the testifier then about the use of 
technology with the Coast Guard in terms of interdictions on 
drugs and weapons. He talked quite a bit about unmanned aerial 
systems and their relationship with other law enforcement 
entities.
    What would be the use and the efficacy of using UUVs, as 
well as USVs in this area? Is that a possibility?
    Mr.  Chance. Sure. USVs, which is my area of expertise, I 
can tell you would lend itself tremendously.
    For example, we are now converting a 38-foot patrol craft, 
optionally unmanned, that can stay and loiter offshore for 
weeks at a time, running a radar, looking for vessels that need 
to be investigated. So this vessel and the data on board would 
be monitored back at a control center on shore, or even on a 
Coast Guard cutter.
    And so, if the Coast Guard decides that they want to 
investigate, they can dispatch that vessel out and be able to 
interrogate it via the satellite base, through the link to the 
VHF radio, and actually talk to that vessel. Or if they can't 
communicate that way, through a hailer and then over the 
satellite link. And if necessary, they can even, as I mentioned 
in my testimony, deploy a net system that entangles in the prop 
that will stop that vessel until the Coast Guard can reach them 
and investigate that situation.
    Ms.  Plaskett. Interesting, really great. Thank you.
    I had a second question for Admiral White. This was with 
regard to the investment that is being made. Do you happen to 
have any statistics or information that speaks to the amount of 
venture capital that is being invested in the types of 
technology that you discussed, and various blue technology and 
its growth?
    Admiral  White. I don't have those at my fingertips, ma'am, 
I apologize. But I will get an analysis of that for you and get 
it back to you.
    Ms.  Plaskett. Would you say that the magnitude of that is 
how much less that is than space or other areas or--what are 
the ways that we can get VC funding into this area?
    Admiral  White. I will go back to the comments by one of my 
cohorts on this panel, is that I think that it is absolutely--
there is an order of magnitude difference in the investment 
that we are making in exploring space and trying to understand 
what is going on in oceans on planets that we will never live 
on--for many generations, at least--whereas we need to pay more 
attention to our own ocean and our own interspace that we have 
here. It is an order of magnitude difference----
    Ms.  Plaskett. Is----
    Admiral  White [continuing]. In terms of technology----
    Ms.  Plaskett. Is there a role that Congress can play in 
incentivizing or getting the private sector and these venture 
capital groups, private equity groups, to be engaged in this?
    Admiral  White. I think working across the various 
committees between your committee, looking at the science 
committee, all the actual committees, and focusing and really 
trying to balance what is really important to our population 
right now. And the maritime and maritime transportation, 
maritime safety and security environment has to be paramount 
for the reasons that we have all talked about. And I just 
believe you can help elevate sort of the understanding, not 
just by the folks here in DC, but by our population, writ 
large.
    We all love space. We all want to be Captain Kirk, which 
means it is either our Navy or our Coast Guard----
    Ms.  Plaskett. Or Uhura.
    [Laughter.]
    Admiral  White. Even better. But as we do that, we need to 
understand that it is a change in perception of that. It is a 
level of importance. And that is through ocean literacy, and 
ocean understanding, and the STEM, ocean STEM that I talked 
about, which would drive education of the next generation of 
our maritime Nation. We should be vested in ocean STEM as a 
mandate to drive this type of discourse going forward, ma'am. 
Thank you for the question.

    [RADM Jonathan White provided post-hearing supplemental information 
to his remarks to Delegate Stacey E. Plaskett below:]

                  Venture capital investment in space

        $18.4 billion in private money (e.g., seed money, prize money, 
        venture capital, private equity, etc.) has been invested in the 
        space industry since 2000. From 100 in 2011 to more than 1,000 
        in 2016, the number of space companies has grown exponentially. 
        To date, 2015 has been the largest venture capital (VC) 
        investment year at $1.891 billion (more than all previous years 
        combined) from 50 VC firms. The bulk of this money came from 
        Google's $1 billion investment in SpaceX. 2017 was not far off 
        that record with $1.596 billion in VC investments from 87 VC 
        firms (up from 44 in 2016). As of 2017, more than 250 VC firms 
        had invested in space activities with 16 making repeat 
        investments.

        Experts report that investors see dual function in the 
        technology they are supporting (e.g., satellite imagery data 
        management can serve industries beyond space) and believe this 
        has been a key driver for investments.

                  Venture capital investment in oceans

        Tracking private investments in startup companies and 
        technology is very difficult unless the transactions are made 
        public or specific industry-titled venture capital funds are 
        created. Venture capital funds are investment funds that manage 
        the money of investors who seek private equity stakes in small- 
        to medium-sized companies and startups. To date, the U.S. does 
        not have any blue technology or blue economy VC funds. 
        Additionally, due to the lack of funds, there are no robust 
        efforts to track this information like there are for space. Any 
        VC investments in blue technology to date have occurred through 
        nonspecific VC funds or individual investments.

        Experts in marine technology recognize the need to establish a 
        designated fund to drive (and monitor) investments and are 
        working towards this goal. In 2017, an important first step was 
        taken by forming the global BlueTech Cluster Alliance 
        coalition. By bringing blue tech companies together, investors 
        can easily and efficiently see the breadth of technology 
        available and how it works together. This partnership also 
        allows the ability to leverage expertise and share financial 
        investments, including international money to foster growth in 
        the maritime domain.

                     What are other nations doing?

        Other nations are advancing rapidly. China, Singapore, and the 
        United Kingdom are already identifying gaps and are making 
        substantial federal investments in basic research, technology 
        development, education programs, and workforce training. In 
        January 2018, the National Science Foundation (NSF) reported 
        that for the first time, China produced more scientific 
        publications than the U.S. As a metric for discovery and 
        advancement, this is a concerning data point showing our Nation 
        faltering in global science primacy.

        Additionally, confidence in China's science and technology 
        innovation was evident with $10.7 billion from VC investments 
        in the second quarter of 2017. While the value is lower than 
        investments in U.S. technology ($18.7 billion during the same 
        time), it shows a dramatic increase (214 percent) from 2013 
        when less than $5 billion was invested for the entire year.

        In the blue technology sector, seven nations are called out as 
        leaders in ocean innovation; they are members of the global 
        consortium BlueTech Cluster Alliance (BTCA):

        <bullet>  Portugal (Forum Oceano)
        <bullet>  Ireland (Marine Institute)
        <bullet>  Canada (Oceans Advance)
        <bullet>  Spain (PLOCAN)
        <bullet>  France (Pole Mer Mediterranee)
        <bullet>  U.S. (The Maritime Alliance)
        <bullet>  U.K. (U.K. Blue Growth Network)

        Additionally, all of these nations except the U.S. are members 
        of the United Nations Convention on the Law of the Sea, giving 
        them a leg up on unity when considering partnerships and 
        combined initiatives.

                          What Congress can do

        Elevate the visibility of and investment in marine technologies 
        through various legislative tools, including appropriations, 
        authorizations, hearings, and briefings. Look for 
        nontraditional legislative vehicles to address the issue.

        Through reauthorization of the National Ocean Partnership 
        Program (NOPP) Act of 1996, specifically task the NOPP agencies 
        to analyze and track U.S. VC investments on blue technology.

    Ms.  Plaskett. Thank you. And that actually leads to the 
second question I had. And we talked about the private sector. 
I wanted to talk about education.
    The Virgin Islands has one of the premier maritime or 
marine biology programs. But in other areas related to ocean 
STEM, I think that there is a dearth of degree options of areas 
that young people can go into.
    Particularly, my question was, are there ways that we have 
tried to increase communities of color, or other minorities--
African American, people of color, Latinos--in this area?
    And what are the ways that we can drive interest for 
individuals who live on the coast, communities of color that 
are tremendously affected by food insecurities, climate change, 
that is affected by the oceans? Does anyone on the panel have 
any thoughts? Please.
    Mr.  Jones. First, to your first question, there is not one 
blue tech investment fund in the United States today. There is 
not one. There are a number of people focused on space, but 
there is not one venture fund in the United States that is 
really focused on blue tech.
    We are doing our third year, part of Blue Tech Week, a Blue 
Tech Pitchfest, and we are reaching out around the United 
States. So I think there are roles for the SBA and other 
agencies--could try and help make--fund organizations that 
would invest in blue tech companies.
    Related to education, we, this year have a major effort in 
particular to reach out to underserved communities. In a place 
like San Diego, where the cost of housing is very high, it is 
very hard to bring somebody in and--technical workers. So we 
believe that we are going to have to grow our own entrepreneurs 
and our own technical workers.
    So we have started an internship program with heavy 
emphasis on underserved communities. We got some funding from 
our--a local foundation. We have just started an immersion 
program. It will be a pilot program. This year we will do 2 
weeks.
    We also started a blue STEM--we used to call it ocean STEM, 
but we want to be more comprehensive than that, so we are 
talking blue STEM--with the San Diego Unified School District. 
We have picked a middle school and a high school. We are 
creating an academy and a workforce pathway. We are working 
with our workforce development agency, with all of our 
universities to really start at the earliest levels. And once 
we can create a replicable model, we plan to put it all across 
San Diego County and then across the country.
    So it is something that we are spending a lot of time on, 
is this whole component of education. We know it is critically 
important to bring females and other underserved communities 
into this.
    Ms.  Plaskett. Mr. Coyle?
    Mr.  Coyle. Can I get back to your investment question? I 
think there are--as Mr. Jones mentioned about there is no blue 
tech fund, I think that is one avenue, in terms of--whether it 
is sovereign wealth management, asset management, private 
equity, venture capital, there is huge opportunity on that. I 
was just at a conference in Santa Monica about what is being 
done in that regard in the Middle East.
    I was just at a conference 2 weeks ago at Yale University 
on the impact investment side, which is looking at how do you 
make profit and do good in the same equation. And if you look 
at the chairman of BlackRock, I think, sending these CEOs 
letters about maybe a month ago that their portfolio companies 
not only have to make profit, but actually have to make an 
impact, that is fundamental.
    When you have got one of the biggest asset management 
companies in the world, you have got the investment community--
there were plenty of Wall Streeters that were there, banks that 
are now fundamentally looking at this as--not as just donating 
to a nonprofit--as how do we use technology to return profit 
and make societal difference? That is fundamental. That's not 
happened in the investment community.
    And so I think there is a role that Government can play 
incentivizing the investment community to pay more attention to 
emerging blue technology.
    Ms.  Plaskett. OK. Yes?
    Admiral  White. For 21 years there has been the National 
Ocean Sciences Bowl, started by Admiral Watkins again. It is a 
high school ocean quiz bowl competition. It brings together 
multiregions across States and around the country, not just 
coastal, but Idaho and Colorado. And this is a high school quiz 
bowl that, unfortunately, is not being utilized to its full 
potential today. It was meant to--actually designed to be run 
by a combination of resources from multiple Federal ocean 
agencies under the NOPP Act, originally.
    This is an opportunity to work with aquariums in inner 
cities and underrepresented populations, to grow not just at 
the high school, but even the middle school level, and really 
use the ocean. Because the aquariums and parks--ocean attracts 
people. They want to engage in understanding it. We have a 
great opportunity through this program and other programs being 
run through the education partnerships and through other 
agencies.
    Not enough attention is being paid to this, in my opinion, 
writ large, and it would be a great opportunity to ask some 
hard questions of the agency. You have got tools out there. Why 
are you not utilizing them to their fullest potential?

    [RADM Jonathan White provided post-hearing supplemental information 
to his remarks to Delegate Stacey E. Plaskett below:]

                      Importance of STEM education

        Good information enables well-founded decisions. Having a 
        foundation in STEM education can make life easier, from 
        understanding mortgage payments and computer basics to natural 
        processes like erosion and weather. A society that understands 
        how physical parameters contribute to climate and natural 
        hazards can make better informed decisions when building homes 
        or preparing for storms. To remain a leader in science and 
        innovation it is critical to educate the next experts in ocean 
        science and STEM.

        When looking at science course availability, fewer than 50 
        percent of high schools offer education in Earth or 
        environmental science.

        <bullet>  98 percent offer biology
        <bullet>  94 percent offer chemistry
        <bullet>  85 percent offer physics
        <bullet>  48 percent offer environmental science or ecology
        <bullet>  48 percent offer Earth or space science
        <bullet>  24 percent offer engineering

        These subjects can help make complex concepts easier to 
        comprehend because they provide real-world examples across 
        multiple disciplines (e.g., physics, geology, physiology, 
        chemistry, biology).

        U.S. STEM and geoscience jobs are projected to grow by 12.5 and 
        14 percent respectively from 2012-2022. In 2016 there were 26 
        million STEM related jobs, but in some disciplines the 
        workforce is aging rapidly (47 percent of American 
        geoscientists in the private sector and 43 percent in the 
        Federal Government were over the age of 55 in 2016). We're 
        looking at a cliff in geoscience workforce. Additionally, the 
        blue economy is projected to double by 2030 to over $3 trillion 
        and 40 million jobs. These jobs demand an ocean-STEM educated 
        workforce and that must start during primary education.

                      Diversity in STEM and O-STEM

        A 2018 survey reported, Hispanics and blacks comprise 16 and 11 
        percent of the U.S. job market respectively, and when looking 
        at STEM careers their representation is much lower (e.g., life 
        science 7 and 4 percent, engineers 8 and 5 percent, physical 
        scientists 7 and 6 percent, respectively). The survey asked why 
        Hispanics and blacks are not working in STEM, and the top 
        reported reasons were: limited access to quality STEM education 
        (42 percent), not encouraged to pursue STEM at a young age (41 
        percent), and don't believe they can succeed in a STEM career 
        (33 percent). If you examine ocean sciences (graduate students 
        awarded master's degrees) a greater lack of diversity is 
        observed, with Hispanics, blacks, and multirace individuals 
        making up 4, 1, and 2 percent of the degrees awarded.

        However, underrepresentation goes beyond race, including gender 
        and financial disparity. The 2018 study showed 69 percent of 
        individuals with non-STEM careers were interested in a STEM 
        career during high school and college and the main reason they 
        chose not to pursue the field was due to cost and time 
        barriers.

     How do we cultivate the diverse and innovative future of STEM?

        Since most high school curricula don't include oceanography, 
        informal educational programs like the National Ocean Sciences 
        Bowl (NOSB) or community initiatives like Pop-Up/Drill-Down 
        Science are increasingly important to introduce students to 
        (and get them excited about) ocean science and blue technology.

        The 21-year-old NOSB promotes collaboration, teamwork, 
        innovation, critical thinking, and professional development, 
        all valuable skills for the O-STEM workforce. Specifically, 
        2,000 participants annually from across the Nation, including 
        Alaska, Hawaii, and noncoastal regions. From 2004-2010, funding 
        was used to increase diversity, specifically targeting 
        minorities and underserved communities. The pilot program 
        highlighted minority and underrepresented students' interest in 
        ocean science and NOSB; students lose interest when programs 
        and access are not stable. With concerted efforts and dedicated 
        funding, diversity was nearly doubled. In fact, the 2018 
        competition year had a participant makeup of 50 percent female, 
        34 percent non-Caucasian and 66 percent Caucasian (averaged 37 
        percent non-Caucasian and 63 percent Caucasian over the last 5 
        years).

        Pop-Up/Drill-Down Science is a 5-year pilot program 
        specifically designed to expose communities, across age ranges, 
        to Earth and ocean sciences through an immersive ``pop-up'' 
        exhibit entitled In Search of Earth's Secrets. The exhibit 
        debuted in March 2018 with the following goals:

        <bullet>  Increase access to and awareness of ocean and Earth 
        science and careers, especially in disadvantaged communities, 
        by bringing the exhibit and associated activities and 
        scientists themselves to nontraditional venues ranging from 
        block parties, local festivals, malls and parking lots to 
        libraries, museums, and science centers
        <bullet>  Create a sustainable model for STEM learning in 
        informal environments
        <bullet>  Increase interest in the scientific drilling and 
        research activities of the International Ocean Discovery 
        Program among the general public (children, teens, and adults) 
        who attend the Pop-Up/Drill Down Science events
        <bullet>  Foster partnerships between educators and scientists 
        that lead to broader dissemination of scientists' research and 
        the larger vision of NSF

        Programs like the National Ocean Sciences Bowl and Pop-Up/
        Drill-Down Science are essential for many underserved 
        communities because it might be the only way they are getting 
        exposure to and knowledge about the ocean.

    Ms.  Plaskett. Thank you.
    Thank you so much for giving me the opportunity to ask 
these questions.
    And Mr. Jones, I think that the island of St. John, where 
we are actually about to rebuild our school, would be a great 
place for you to try another pilot out for these young people.
    So thank you, Mr. Chairman, and I yield back.
    Mr.  Hunter. I thank the gentlelady. If there is no further 
questions, I thank all the witnesses for their testimony and 
the Members for their participation.
    The subcommittee is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
